                                                                                 Office               Hotline

    Office of Inspector General                                                  202.692.2900
                                                                                 peacecorps.gov/OIG
                                                                                 OIG Reports
                                                                                                      202.692.2915 ‫ ׀‬800.233.5874
                                                                                                      Online Reporting Tool
                                                                                                      OIG@peacecorps.gov




To:              Carrie Hessler-Radelet, Director
                 Daljit Bains, Chief Compliance Officer

From:            Kathy A. Buller, Inspector General

Date:            September 30, 2014

Subject:         Final Report on the Program Evaluation of the Peace Corps’ Training of Overseas
                 Staff (IG-14-07-E)

Transmitted for your information is our final report on the Program Evaluation of the Peace
Corps’ Training of Overseas Staff.

Management concurred with 23 recommendations and did not concur with two.1 All
recommendations will remain open pending confirmation from the chief compliance officer that
the documentation identified in management’s response has been received. In its response,
management described actions it is taking or intends to take to address the issues that prompted
each of our recommendations. We wish to note that in closing recommendations, we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix G, address these matters.2 Please respond
with documentation to close the open recommendations in accordance with the deadlines
included in the agency’s response.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Lead Evaluator Heather Robinson at
202.692.2913.

Please accept our thanks for your cooperation and assistance in our review.

cc:     Laura Chambers, Chief of Staff
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Daryl Sink, Acting Associate Director, Safety & Security
        Carlos Torres, Associate Director for Global Operations
        Karen Bickle, Director, Human Resource Management
        Linda Brainard, Chief Acquisition Officer

1
  While the preliminary report contained 26 recommendations, we eliminated one recommendation,
recommendation number six, because the agency provided us additional data after we released the preliminary
report. All subsequent recommendation numbers were changed accordingly.
2
  Our comments reflect the final report recommendation numbering scheme.
Garry Stanberry, Deputy Associate Director, Management
Dorine Andrews, Chief Information Officer
Keri Lowry, Regional Director, Europe, Mediterranean, and Asia Operations
Dick Day, Regional Director, Africa Operations
Ken Yamashita, Regional Director, Inter-America and the Pacific Operations
Joseph Hepp, Chief Financial Officer
David King, Director of Civil Rights and Diversity
Marie McLeod, Director, Office of Global Health and HIV
Paul Jung, Associate Director, Office of Health Services
Kellie Greene, Director, Office of Victim Advocacy
Sonia Stines Derenoncourt, Director, Overseas Programming and Training Support
Sarah Morgenthau, Director, Peace Corps Response
Patricia Barkle, Deputy Chief Compliance Officer
 Peace Corps
 Office of Inspector General




 Final Program Evaluation Report:
Training Peace Corps’ Overseas Staff
            IG-14-07-E
                           September 2014
                                EXECUTIVE SUMMARY
BACKGROUND
One of the Peace Corps’ strategic objectives for fiscal years (FYs) 2014 to 2018 is to “cultivate a
high-performing learning organization by investing in professional development for staff.”
Previous agency assessments and Office of Inspector General (OIG) reports have noted the
challenges of trying to train staff who work around the world. At the time of our analysis,
approximately 75 percent of the Peace Corps’ workforce was based overseas. Of those, eight
percent were designated United States direct hires (USDHs) while the remaining staff was
personal services contractors (PSCs) and foreign service nationals (FSNs). With the passage of
the Kate Puzey Peace Corps Volunteer Protection Act of 2011 (Kate Puzey Act), PSC
responsibilities have been expanded to include inherently governmental functions, including
supervisory roles. As a result of the change, federally mandated trainings previously deemed not
applicable for PSCs needed to be reexamined by the agency.

OBJECTIVE
This evaluation’s objective was to assess the agency’s provision and management of training for
all overseas staff. To achieve this, we identified mandatory training requirements and attempted
to describe the training programs available to overseas staff. We also reviewed the way the
agency manages staff training, how it tracks and measures training effectiveness, and how it
manages the training budget.

RESULTS IN BRIEF
The training of overseas staff at the Peace Corps is inconsistent and varies greatly depending on
one’s position and post. Overseas staff in some positions receives consistent, ongoing training,
especially for USDH positions or those that address Volunteer health and safety. For other staff,
training is inconsistent and on-the-job training is common.

The agency lacks a standardized initial training program for new overseas staff. Although the
agency puts significant effort into its Overseas Staff Training (OST) program, according to our
data, only 18 percent of current overseas staff (and nine percent of HCNs) hired between 2008
and 2013 had attended it. For staff not attending OST, responsibility for initial training falls to
posts, which receive little to no guidance on what new staff needs to know when beginning a
position. Furthermore, without a standard introductory training program, the Peace Corps is not
ensuring that overseas staff has a base level of understanding of the agency and federal laws and
regulations.

The agency needs a central office to develop, manage, and coordinate the training of overseas
staff; develop a learning strategy; and ensure that all employees are trained on mandatory and
job-essential topics. The lack of a recognized office or a senior official to oversee and coordinate
training has adversely affected the agency’s training strategy, particularly e-learning; the number
of training practitioners throughout the agency; how the training budget is managed; and the
agency’s ability to meet federal training mandates. It was nearly impossible in our evaluation to
identify and research all of the trainings provided at the agency in large part because there is no
centralized management of the agency’s training function.


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                 i
Despite the fact that HCNs make up over 90 percent of Peace Corps’ overseas workforce, the
agency does not have a training coordinator for them. The Office of Human Resource
Management (HRM) does not provide new hire training for FSNs and PSCs. Even though the
Office of Overseas Programming and Training Support (OPATS) coordinates OST, many HCNs
do not get to attend this training. The agency needs a designated manager who understands all
overseas staffs’ training needs, not just USDHs’, and can ensure they receive the training needed
to perform their jobs and meet federal training requirements. The lack of a single information
technology (IT) system that contains personnel data for both USDHs and HCNs adds to the
challenge of managing training in a more centralized, coordinated way.

Training has also been negatively impacted by poor institutional memory and insufficient
transition management. The lack of formal systems, processes, and job-based responsibilities has
created training gaps and inconsistencies over time. The agency’s five-year term-limited
appointments and high staff turnover compound this issue. 1 Therefore, there is a particular need
for systems to be well-established and documented, so that training responsibilities, processes,
and maintenance of records are consistent despite staff transitions.

The Peace Corps’ learning management system (LMS), Peace Corps University (PCU), currently
has limited functionality, making it difficult for staff and training managers to track training. The
LMS is lacking the fundamental ability to easily identify everyone who needs to take certain
trainings based on their position and job responsibilities.

The aforementioned challenges decrease the efficiency and effectiveness of the agency’s overall
training program and contributed to issues we found related to specific trainings. For example,
LMS challenges made it difficult to ensure that all staff had taken the sexual assault policy
training as required by law. Classified information and supervisor training faced disruptions
because of staff transitions.

RECOMMENDATIONS
Our report contains 25 recommendations that target both systemic and training-specific issues.
These recommendations were developed to help the agency establish clearer authority and
responsibility for training, improve training needs assessments, develop a standardized training
program for all new overseas staff, and improve the way the agency manages training data by
improving the LMS. There are also recommendations that will help the agency meet federal laws
and fulfill agency policy related to specific training topics. If implemented, these
recommendations should strengthen post operations and correct the deficiencies detailed in the
accompanying report.




1
 We previously discussed this issue in IG-12-05-E, Final Evaluation Report: Impact of the Five Year Rule on
Operations of Peace Corps (June 2012).



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                         ii
                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY .....................................................................................................................i

BACKGROUND AND EVALUATION OBJECTIVES .............................................................................1

SECTION A: ANALYSIS OF SPECIFIC TRAININGS ............................................................................5

SECTION B: IDENTIFICATION OF S YSTEMIC ISSUES .....................................................................26

LIST OF RECOMMENDATIONS .......................................................................................................43

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................45

APPENDIX B: INTERVIEWS CONDUCTED ......................................................................................47

APPENDIX C: LIST OF ACRONYMS ................................................................................................49

APPENDIX D: OTHER MANDATED TRAININGS .............................................................................51

APPENDIX E: FEDERAL SUPERVISORY TRAINING FRAMEWORK.................................................52

APPENDIX F: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT .........................................53

APPENDIX G: OIG COMMENTS ....................................................................................................62

APPENDIX H: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ...............................64




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff
              B ACKGROUND AND EVALUATION OBJECTIVES
In the fall of 2013, the Peace Corps released its strategic plan for FYs 2014 to 2018, which
included 11 strategic objectives that will serve as the roadmap for advancing the agency’s
mission. One of those strategic objectives is to “cultivate a high-performing learning
organization by investing in professional development for staff, improving staff retention, and
strengthening institutional memory.” According to the strategic plan, the five-year rule, which
limits the majority of American staff to five year appointments, has produced “significant human
capital and knowledge management challenges.” 2 In order to overcome these challenges, the
agency has identified two performance goals: increase the percentage of staff satisfied with the
training they receive to 62 percent by FY 2018 and increase the average tenure of USDH staff.
                                                                               Figure 1: Overseas Staff
OVERSEAS STAFF MAKEUP                                                                  Makeup
As of April 1, 2014, approximately 2,223 people, or 75
                                                                                Overseas PSCs and FSNs
percent of the Peace Corps’ workforce, were based overseas.                     Overseas USDHs
Of those 2,223 people, 182 (eight percent) were designated
USDHs. 3 Overseas USDHs are all American citizens and                                 182
typically fill the three most senior positions at a post: country
director (CD), director of programming and training (DPT),
and director of management and operations (DMO).

In addition, there are several USDH positions overseas that
cover multiple posts. There are 10 overseas Peace Corps
safety and security officers (PCSSOs) who serve as security                                   2,041
advisors for multiple posts in a region. Africa also has two
USDHs who serve overseas as programming and training                    Source: Employee Summary Transmittal:
regional advisors.                                                      April 1, 2014

The remaining 2,041 overseas staff members were either PSCs or FSNs. PSCs and FSNs
(hereafter referred to collectively as HCNs except in cases when the distinction affects training
requirements) are primarily citizens of the host country, but a few may be American citizens or
citizens of a third country.

Prior to 2011, the Peace Corps Act stated that a PSC was not considered an employee of the U.S.
government for any purpose. However, the Kate Puzey Act amended the Peace Corps Act so that
a PSC may be deemed an employee of the U.S. government for any purpose except “any law
administered by the Office of Personnel Management” (OPM). As a result of this amendment,
the Peace Corps revised its policies and procedures to treat PSCs as employees for nearly all
purposes. For example, PSCs are subject to the same duties and responsibilities as direct hire
employees and receive comparable allowances and benefits. More crucially, PSCs are now

2
  In 1965, the five year rule became law when an amendment to the Peace Corps Act brought all U.S. direct hire
employees under the same personnel system, limited all U.S. direct hire employees’ appointments to a maximum of
five years and gave the Director limited authority to approve extensions of not more than one year.
3
  This calculation does not include short term PSCs such as language and cross cultural facilitators.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                         1
authorized to perform inherently governmental functions: they can supervise other PSCs;
perform cashier and other financial management duties; and serve as receiving officers,
contracting officers (COs), and property officers. As for FSNs, they are appointed under Section
7(a) of the Peace Corps Act, the same basic authority for the appointment of Peace Corps
employees. Accordingly, FSNs are federal employees for all purposes.

PREVIOUS ASSESSMENTS OF STAFF TRAINING
Staff training has been an area of focus for the Peace Corps for at least several years. The agency
has produced multiple assessments that addressed staff training needs and training concerns have
been raised in multiple OIG reports.

In 2008, the Director’s Office requested that an      A 2008 IMA reported that the agency has
Internal Management Assessment (IMA) be
                                                        a long history of under-investing in the
conducted to determine how well the office of
Overseas Programming and Training Support                   professional development HCNs.
(OPATS) functions and structures aligned with
programming and training needs in the field. 4
According to the IMA team, there was a general agreement amongst staff at headquarters and in
the field that the agency has undervalued and under-invested in professional development for its
entire staff, but particularly for HCN staff. Several of the IMA’s recommendations include

           1. Organize and staff a unit tasked with developing and continuously updating a knowledge base
              that informs staff professional development options beginning initially with our key technical
              sectors and core Peace Corps business practices.
           2. Expand e-learning courseware using knowledge assets as requested by posts.
           3. Task the new learning and professional development division to…Leverage field knowledge
              as a critical resource and streamline information sharing across regions and sectors.

In 2009 Congress required the Peace Corps to produce a comprehensive assessment report of the
agency’s operations, including training for staff. The assessment made three recommendations
related to improving staff training:

           1. Recommendation VIII-6: The assessment team recommends that the Office of Overseas
              Programming and Training Support redefine the continuum of learning to make it simpler,
              more focused, and adaptable.

           2. Recommendation VIII-7: The assessment team recommends:
                a. Completion of the two courses under development and continue efforts to license or
                   use already developed online courses in leadership, management, and communication
                   skills as a way of providing immediate access to development for overseas staff.
               b. Additionally a concerted effort will need to be made to establish a culture of learning,
                   so that overseas staff is motivated and rewarded for completing courses and is given
                   time during working hours to do so.
               c. When overseas staff is comfortable with using online courses for development, then it
                   may be useful to continue the development of additional in-house designed e-courses.

           3. Recommendation VIII-8: The assessment team recommends that:


4
    At the time of the IMA assessment OPATS was called the Center for Field Assistance and Applied Research.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                          2
                  a.   The Office of Overseas Programming and Training Support develop a basic orientation
                       for all overseas staff.
                  b.   Posts develop training plans for current and new staff members.

In a speech to Congress, former Director Aaron Williams announced his approval of all
recommendations and committed the Peace Corps to their implementation. An implementation
matrix was developed and the three recommendations discussed above were to be completed by
FY 2012. However, the agency stopped tracking progress of the recommendations and we could
not verify that the three listed above had been implemented.

In addition to these two agency-wide assessments, OIG has produced multiple evaluations and
audits that included recommendations directed at staff training. In FY 2012, OIG produced
Recurring Issues: OIG Post Audits and Evaluations Fiscal Years 2009-2011, which summarizes
the additional oversight, resources, and training that the agency must provide to posts to support
implementation of policies and procedures intended to improve efficiency and effectiveness. The
report concluded that insufficient training of overseas staff was a common cause for many
findings and this was the impetus for this evaluation.

TYPES OF TRAINING
Most overseas staff receives training in a variety of different ways—through OST and MOST,
regional conferences, visits from trainers, staff exchanges, mentoring programs, and on-the-job
training. USDHs that will work overseas start their employment at the Peace Corps by attending
an intensive three and a half to four and a half week training program called OST. 5 OST occurs
three times a year and is one of the most extensive and comprehensive trainings provided by the
Peace Corps. It is comprised of three separate tracks: one is designed for CDs, one for DPTs, and
the final for DMOs. Some HCNs also attend OST, but it is rarely at the beginning of their
employment. Peace Corps medical officers (PCMOs) have their own training program, MOST,
that they are required to attend during their first year of employment.

Annual and semi-annual conferences are common for some positions. The Office of Health
Services (OHS) hosts an annual Continuing Medical Education (CME) conference for its
PCMOs. The Office of Safety and Security (SS) typically alternates annually between
conferences for its safety and security managers (SSMs) and PCSSOs. 6 Because of the major
changes to Volunteer safety that have taken place over the past several years, SSMs have
attended annual conference trainings since 2010. Regions also sponsor periodic CD, DPT, and
DMO conferences, along with other ad hoc regional and sub-regional conferences to roll out new
initiatives or provide training to positions that do not typically receive regular, standardized
training. For example, from 2012-2013 each region, in conjunction with the Office of the Chief
Financial Officer (OCFO), held two well-received cashier conferences. In 2013, OPATS
organized region-sponsored conferences on monitoring and evaluation.

Trainers also travel to posts to train and mentor some or all of the staff. Some PCSSOs, for
example, may provide trainings to staff on topics ranging from emergency preparedness to site

5
    PCSSOs do not attend OST.
6
    The agency changed the title of the safety and security coordinator to safety and security manager.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        3
development during their visits to each post. PCSSOs also serve as technical trainers and
mentors to the SSMs. Other examples of trainers traveling to posts include the regional IT
specialists who train and mentor new IT specialists, the roving PCMO who oversees new
PCMOs’ education and training, and OPATS training specialists who deliver trainings on
numerous topics.

The Peace Corps also provides online trainings through several different platforms. PCU serves
as the agency’s LMS for its employees. Launched in 2010, PCU was intended to provide “access
to a wide variety of Peace Corps and non-Peace Corps training and staff development activities,
with virtually all content on [the] ‘one-stop’ training/professional development site open to
anyone interested in gaining new skills.” Additional online trainings are found outside PCU in
different areas of the intranet. Lynda.com is another virtual platform available to all Peace Corps
staff and offers many trainings on topics ranging from online marketing to Photoshop.

Finally, the agency will occasionally train overseas staff through staff exchanges and
mentorships. The agency does not have a formal staff exchange and mentoring program so these
tend to be managed by the regions on a case-by-case basis.

EVALUATION OBJECTIVES
The objective of the evaluation was to assess the agency’s provision and management of training
for all overseas staff. To achieve that, we identified mandatory training requirements and
attempted to describe the training programs available to overseas staff. We also reviewed the
way the agency manages staff training, how it tracks and measures training effectiveness, and
how it manages the training budget.

Although the evaluation uncovered some positive elements of the training program, there is room
for improvement. We found the agency is challenged in providing the same level of quality
trainings to HCNs that they do for USDHs. While the evaluation uncovered issues with specific
trainings that can be quickly remedied to meet federal training regulations or make short-term
improvements (see Section A: Analysis of Specific Trainings), fixing the underlying causes that
create lasting change will take more effort (see Section B: Identification of Systemic Issues).




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                             4
              SECTION A: ANALYSIS OF SPECIFIC TRAININGS
THE STATE OF TRAINING INITIATIVES AT THE PEACE CORPS
Through our review, we determined that there are many areas where the agency is putting a lot of
resources into training. In fact, there are so many different trainings provided by different offices
that we struggled to accurately identify all of them. While it was clear that the Peace Corps
provides numerous training opportunities, it was more difficult to determine whether these
training events are effective in giving staff the skills and knowledge they need to perform their
jobs. Although the agency conducts pre- and post-tests for some trainings, such as the annual
CMEs for PCMOs, others do little more than conduct a satisfaction survey. Nevertheless, there is
a view among some staff that training opportunities have increased in recent years.

In addition to the formal training events and online courses, some of which will be reviewed later
in this section, overseas staff surveyed as part of this evaluation identified staff exchanges
between posts as an important and valuable form of training. 7 Survey comments reflect the
usefulness of these staff exchanges as well as the interest in allowing more staff to participate in
a staff exchange:

        The staff exchanges are very important for staff. They help with keeping staff motivated,
        reenergizing them, helping them see new ways of doing things and becoming more appreciative of
        what works.

        [A] staff exchange program would also be…[a] helpful training. Where I can learn and share my
        skills and experience with the staff from other posts.

        If I was to… even have [a] staff exchange with other neighboring countries to find out how they
        handle the staff they are supervising, it would help a great deal.

Despite the availability of multiple formal training opportunities, many overseas staff stated that
on-the-job training is very common and is often the primary form of training. Although on-the-
job training is sometimes delivered through planned shadowing and mentoring experiences, most
of the time these training opportunities are ad hoc, leading to inconsistencies and variability
across positions, posts, and time. Most staff reported that they are eventually able to learn
everything they need to know to do their jobs, but this approach to learning is not the most
efficient and leaves room for gaps. Staff comments reflect some of the challenges of relying too
much on on-the-job training:

        [Staff] learns everything on the job and thus the quality is reliant on their APCD [Associate Peace
        Corps Director] and APCDs haven't received training on how to coach and mentor.

        We have had to learn on the job, screw up and make it up as we go along. Not doing this right
        affects communication and morale

        We are about to hire a new key position and finding the time to provide on the job training is
        going to be tough.

7
 We surveyed overseas staff to obtain their views on training. Quotes and survey percentages in the report reflect
feedback gathered from this survey. See the Objective, Scope, and Methodology section for more information.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                                5
An important message that we heard repeatedly from overseas staff is the lack of time to
participate in training due to high workloads and other job demands. Although staff is usually
able to attend Peace Corps conferences and trainings held outside the office, it is difficult, if not
impossible, for them to find time for online courses and other trainings that are not mandatory.
Staff comments reflect the challenges they face:

       Our workload is so great that programming staff works over 50 hours per week and doesn't have
       time to think about other professional training opportunities, let alone take time to participate.

       I personally never get the time to even look at online training. When a training is mandatory, then
       I do it but I wish we had it in our PC Policies to take the first 2 weeks of one's employment to do
       training.

       Until Peace Corps starts staffing posts appropriately and filling vacant positions within a
       reasonable time frame (1-3 months, not 6 months to over a year) then we can think about training.
       But for now, no one has time for it, and there is certainly no budget for it.

       I would love to do some of the trainings that are offered on-line by PC but find that I simply do
       not have the time. It's interesting that we find the time when the training is out of the office but to
       do it while at the office is impossible! Innovative ways to encourage staff to do these on-line
       trainings will help...like sending small groups to a venue for 2 days to complete a particular course
       by themselves. I feel we aren't taking advantage of what's available.

This challenge is important for Peace Corps senior staff to consider when making improvements
to the training program.

SUMMARY OF TRAININGS WITH NO SIGNIFICANT CONCERNS
As part of the evaluation, we assessed whether the agency was delivering required trainings. This
required us to assemble a list of all trainings that the Peace Corps was required to provide to
overseas staff, either through federal mandates, Peace Corps policy, or standard operating
procedures. Because time and resources limited our ability to thoroughly analyze all trainings,
we prioritized trainings based on topic and available records. The trainings presented in this
section represent the ones that were prioritized for analysis (see the Objective, Scope, and
Methodology section for more detail). In our review of the trainings for cashiers, subcashiers,
cashier supervisors, CMEs, MOST, ethics for confidential filers, and OST we found no
significant areas of concern. Following is a summary of our analysis of those trainings.

Cashier Training. Cashiers, and alternate cashiers when applicable, are required to complete a
course and pass a cashier exam that is provided by the Department of State (DOS) within 180
days of receiving temporary designation. If the exam is not completed within the allotted
timeframe, the designation will be revoked and the designee will not become a cashier. As this
training is handled by a different agency, we did not do an in-depth analysis of this aspect of
cashier training. We performed a spot check of cables proving that cashiers had successfully
completed the cashier exam and received their designations. OCFO was able to provide evidence
of 100 percent of the requested cables.

The Peace Corps also provides an online training in the Overseas Financial Management
Handbook that should be taken within a month of operating as a cashier. The training is tailored
specifically to the Peace Corps’ imprest management and operations and gives cashier designees


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            6
access to immediate training on their roles and responsibilities. In June 2014, OCFO made the
online training mandatory for all new principal and alternate cashiers. Currently only 48 percent
of cashiers and 12 percent of alternate cashiers take the non-mandatory training, but now that the
training is required these numbers are expected to increase.

Subcashier Training. When a staff member is asked to be a subcashier, he or she will be trained
on policies and procedures by the DMO and cashier and then take an exam. Upon passing the
exam, the DMO will send an email confirmation to the Office of Global Accounts Payable, and
the subcashier will receive a formal designation. This designation is valid for one year and can
be renewed.

While this process used to be optional, in 2012 it became mandatory for all new subcashiers to
complete the training and pass the test before receiving a designation. Although our survey found
that 25 percent of subcashiers reported that they have not received training, we attribute this to
the people who became subcashiers prior to the implementation of the training requirement.
While the graded test is kept at post, we requested and received 100 percent of the confirmation
emails from DMOs for all subcashiers that have been hired since training became mandatory.

Cashier Supervisor and Cashier Verification Officer Training. Cashier supervisors must be a
USDH—typically the DMO or, less commonly, the CD. The cashier supervisor does not need to
take the DOS-required training because they receive authorization by virtue of their position.
Cashier supervisors receive training on imprest operations during OST.

At a few posts, the DMO position is filled by a HCN, not a USDH. Non-USDH DMOs are given
the designation cashier verification officer (CVO). Like cashiers and alternate cashiers, CVOs
must pass a DOS-administered examination within 180 days of receiving a temporary CVO
designation. OCFO was able to provide evidence of cables confirming the designation of all
CVOs. Like the USDHs, these DMOs also attend OST where they receive additional Peace
Corps specific training on imprest operations.

CME. The annual CME conference provides
PCMOs the opportunity to gain a better                     Our analysis found the CME
understanding of various clinical topics, learn new  conference to be an effective and well-
policies that affect clinical care, and share best
practices and experiences with each other. OHS                run training program.
holds several conferences around the world each
year, and all PCMOs are required to attend one. We
reviewed OHS records from 2009–13 and found that
most PCMOs are attending annually as required; there were never more than six PCMOs who
did not attend the annual CME. In 2010, OHS started requiring PCMOs who could not attend the
CMEs to make up the training. Records show that 96 percent of PCMOs either attended the
CME or received make-up credit between 2010 –13.

OHS also asks PCMOs to take a pre- and post-test to track the effectiveness of the CME. These
tests reveal some positive results. Ninety-eight percent of PCMO scores improved from the pre-
test to post-test, and 92 percent of PCMOs passed the post-test by scoring 70 percent or higher



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                             7
from 2009–13. The 2013 CMEs were particularly effective; in that year all of the PCMOs
demonstrated improvement after attending the CME and all of them passed the post-test.

MOST. OHS requires all PCMOs who work at least 20 hours per week to attend MOST,
typically during the first year of their employment. The purpose of the training, which is held
once a year at headquarters, is to provide new PCMOs with an administrative introduction to the
Peace Corps and familiarize them with policies, procedures, and logistics. Of the 38 PCMOs
who are currently employed at the Peace Corps and were hired in 2009 or later, all but four
attended MOST within the first year of their employment. Of the four who did not attend in the
first year, one was on maternity leave and three were hired too close to the MOST to make it
feasible to attend.

Ethics Training for Confidential Filers. The Ethics in Government Act of 1978 requires each
agency to provide annual ethics training to confidential filers. Overseas, confidential filers
include the CD, DMO, and—as of 2011—the DPT. In our review of training records for
confidential filers from 2008–13 we found the following completion rates:

                              Table 1: Confidential filers that received training 8
                                                          2008    2009    2010    2011     2012    2013 9
          Total filers that received training              21      45      59      88       123     160
          Total filers that did not receive training       11       6      16      23       17       7
          % of filers that received training              66%     88%     79%     79%      88%      99%
           Source: Office of General Counsel’s training records

In general, we found that ethics training for confidential filers was improving. We noted that
HCNs were consistently less likely to complete the training than USDHs; in 2011, only 13
percent of HCN confidential filers completed the ethics training. However, because of the small
number of HCN confidential filers, limitations in the data (to be discussed later), and their
successful completion rate in 2013, we have no major concerns with this training. 10

OST. While we are concerned that OST serves as the primary source of training for new
overseas staff even though only a small portion (18 percent) attends, we have no significant
concerns related to the content of OST. In our survey of overseas staff, 84 percent of respondents
who have attended OST reported that they were “satisfied” or “very satisfied” with the training.
Furthermore, OPATS, the unit in charge of OST, has staff dedicated to managing and facilitating
OST. The training track facilitators are continuing to make improvements by clarifying the
learning objectives, developing a continuum of learning, and creating extensive mechanisms to
measure and track learning effectiveness.




8
  Scope limitations: We limited our scope to filers employed at Peace Corps as of January, 2014.
9
  In 2013, OGC started using Survey Monkey to deliver training.
10
   Peace Corps only had 10 HCNs who were confidential filers as of January 29, 2014.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                       8
ASSESSMENT OF TRAININGS WITH FINDINGS AND RECOMMENDATIONS

The rest of Section A will discuss our findings and immediate or shorter-term recommendations
to many of the problems we found that we hope will have a significant and positive impact on
training for overseas staff. Of the trainings that we analyzed, our evaluation found a number of
issues related to sufficiency, oversight, breadth, and consistency of training.

Although many overseas staff had received the Kate Puzey Act mandated sexual assault
trainings, the agency’s tracking method made it difficult to ensure full compliance with the
law.

The Kate Puzey Act mandated that all Peace Corps overseas staff receive training on the
agency’s sexual assault policy. To fulfill this legal mandate, the Peace Corps developed the Staff
Sexual Assault Policy Overview and Updates training.
The agency also provided a Sexual Assault Awareness
and Victim Sensitivity training to staff.                     Eighty-seven percent of overseas

All staff was required to take the policy overview           staff received training on the Peace
training by December 2013, either through in-person               Corps’ sexual assault policy.
regional trainings for designated staff; an online
training module in PCU; or an in-person, post-provided
training for staff who did not speak English or were not computer literate. 11 Based on personnel
and training records we obtained, there was 290 designated staff who attended the regional
trainings. There were an additional 1,869 staff who did not attend the regional trainings and
therefore needed to receive the training online or in a post-provided session. Of those staff, 86
percent (or 1,599 people) completed and passed the online training or attended an in-country
training session for non-English speakers. Therefore the agency trained 1,889 or 87 percent of its
overseas staff (including designated staff) on the sexual assault policy. Although the agency
reached a majority of staff, the completion rate falls short of the legal requirement to train all
staff, and there were people in key positions who did not complete the training. For example,
there were seven CDs in our analysis who did not take the training. Because CDs have
overarching responsibility for the post’s Volunteer safety program, it is essential that they
receive the necessary trainings. We also discovered that compliance varied by post. Fourteen
posts had a 100 percent training completion rate while others trained about 50 percent of its staff.




11
  According to agency policy, “designated staff” at post refers to PCMOs, Sexual Assault Response Liaisons
(SARLs), and SSMs.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        9
                         Figure 2: Sexual Assault Policy Training Completion Rate by Post 12

       Number of posts




                                       Percentage of staff who completed sexual assault training

                               Sources: Personnel records and sexual assault policy training records

The victim sensitivity training was announced in December 2012, and staff in select positions
had 90 days to complete it in PCU. 13 According to January 2014 personnel records obtained
during the evaluation, there were 597 people who served in one of the selected staff positions




12
  Even though the post was suspended, staff in Mali was still expected to complete the sexual assault trainings.
13
  According to a December 14, 2012 memo from the Acting Peace Corps Director, the “Sexual Assault Awareness
and Victim Sensitivity” training was “required for the following staff members at post: country directors, directors
of programming and training, directors of management operations, safety and security coordinators, associate Peace
Corps directors/project managers, programming and training specialists, training managers, Peace Corps medical
officers, and any other staff who may function as a duty officer or first responder.”



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            10
and were therefore required to take the training. 14 Of these 597 people, 488 (or 82 percent)
people took the training. 15

There is not a centralized office or system that
maintains personnel data for USDHs and HCNs.
As a result, staff in SS who were managing the
                                                       Peace Corps does not have a centralized
training could not obtain a list of all overseas
staff who needed to take the training. Also, the      system that maintains personnel data for
reports from PCU only contained the names of                      USDHs and HCNs.
people who had taken the training; the reports
did not identify gaps by comparing who was
supposed to take the training. The lack of a
complete staff list also prevented training managers in SS from knowing whether everyone had
taken the training and from doing the needed follow-up. Staff in SS relied on the posts to ensure
that staff took the trainings. CDs received a list of staff members who had completed training
and they were expected to conduct the necessary follow-up with people who were not on the list.
There were no consequences for staff who did not fulfill the training requirements.

We experienced these data-related challenges firsthand during this evaluation, and the lack of
centralized, coordinated data systems hindered our ability to assess whether the sexual assault
training requirements were met. Staff who managed PCU was working with Office of the Chief
Information Officer (OCIO) to load personnel information into PCU, which should alleviate
some of these challenges. Until then, it will be very difficult and time-consuming to monitor
whether training requirements have been met.


             Tracking was hindered because training staff could not obtain a list of
                  people who needed to take the sexual assault policy training.


The agency’s ability to accurately track sexual assault training participation has been an ongoing
challenge. The IG-12-08-E Final Report: Review of the Peace Corps’ Implementation of
Guidelines Related to Volunteer Victims of Rape and Sexual Assault (September, 2012)
identified the need to track staff participation in sexual assault response training. Although the
agency agreed to the recommendation, it is still open. As a result of these ongoing data and
tracking difficulties, the agency did not fulfill the Kate Puzey Act staff training requirement, and
some staff might not have the skills and information they need to properly respond to a
Volunteer sexual assault.




14
   We did not have a list of duty officers and other first responders so it was not possible to verify whether all of
them took the training. The analysis only focuses on the other positions outlined in the Director’s December 2012
memo.
15
   An additional 793 people took the training even though it was not required of them.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                               11
                We recommend:

                    1. That the chief of staff develop and implement a process
                       to ensure that all overseas staff, including newly hired
                       staff, complete the sexual assault policy training.

                    2. That the chief of staff monitor the victim sensitivity
                       training and ensure staff takes it, as needed.


There was no oversight by headquarters to ensure that overseas staff received proper training
on the confidential handling of Volunteer allegations.

The Peace Corps’ reported failure to protect the confidentiality of a whistleblower who was then
murdered was one of the main reasons behind the enactment of the Kate Puzey Act. Among
other things, the Kate Puzey Act required all Peace Corps staff with access to information
reported by Volunteers to receive training on the confidential handling of Volunteer allegations.
Because anyone at post could potentially have access to reported information, Peace Corps’
Manual Section (MS) 271 “Confidentiality Protection” requires the training of all Peace Corps
staff. MS 271 further required that the confidential training:

       Must include instructions regarding the protection of the information, the prevention of
       inadvertent or inappropriate disclosures of such information, and the action that must be taken to
       provide for the safety of the reporting Volunteer.

Since 2011, the Office of Global Operations (OGO) has consistently provided training on
confidential handling of Volunteer allegations at each OST. However, many overseas staff did
not attend OST. According to OGO, the CD or DPT at each post is responsible for providing
training to the rest of the overseas staff on confidential training. To assist the CD and DPT in
delivering this training, OGO developed and distributed a standardized presentation in 2011.
However, the training has not been updated since it was first developed, and we were unable to
verify that OGO had re-sent the training to CDs and DPTs since 2011 or reminded them of the
training obligation.

We could not verify whether overseas staff was receiving this important, agency-mandated
training because there were no training records from 2012-2014. OGO stated that the regional
security advisors were responsible for tracking training completion. However, regional security
advisors stated that the tracking was only being done at the post level and they were not
involved. The lack of clear responsibility for delivering and tracking this training has created a
gap—no one is providing oversight to ensure that all employees are trained on the confidential
handling of Volunteers allegations.

Without consistent training, the Peace Corps is not able to verify that all overseas staff knows
how to keep Volunteer allegations confidential and there is evidence that some staff has not
received the information they need. Our investigative hotline has received inquiries from staff
who are unsure where and how to properly pass along Volunteers’ confidential allegations.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                       12
Because failure to maintain confidentiality can have serious, even tragic, consequences, it is
critical that staff be properly trained.

               We recommend:

                   3. That the associate director for global operations
                      periodically review and redistribute the standardized
                      training on the confidential handling of Volunteer
                      allegations and create a process to ensure it is provided
                      to all overseas staff.


Overseas staff in supervisory roles was not receiving sufficient training.

There are numerous training requirements for supervisors in the federal government. According
to 5 C.F.R. § 412.202, supervisors must receive training within one year of being appointed to a
supervisory position and also receive periodic follow-up training at least once every three years.
The training is expected to cover topics such as mentoring, improving employee performance
and productivity, performance appraisals, and
dealing with poor performance. Furthermore, there
are other federal regulations that require
supervisors to receive training on a number of          Supervisor training is not provided to
other topics and programs, such as the employee              host country national staff.
assistance program and incentive award programs.
OPM has created a supervisory training framework
that incorporates mandatory training, recommended training, and other important skills and
information supervisors need (see Appendix C: Federal Supervisory Training Framework).

Supervisory training has been a challenge for the agency in recent years, and overseas
supervisors have not been adequately trained. One problem is that comprehensive supervisory
training was not conducted at the Peace Corps for several years; the date of the last
comprehensive supervisory training was unavailable because of turnover and incomplete training
records. This lack of training affected all supervisory staff, both domestic and overseas.
According to managers in the Office of Management, supervisory training was not conducted
because the agency did not have a training manager from mid-2010 until December 2013. This
turnover created gaps in the Peace Corps’ supervisory training program.

Even when supervisory training was offered in 2013, there were overseas supervisors who never
took the training. From 2008–13, the only training provided to overseas supervisors was a
supervisory performance appraisal training for USDHs. According to the agency’s personnel
records, there were 148 overseas USDH supervisors employed in January 2014 who held a
supervisory position when the 2013 supervisor performance appraisal training was conducted. Of
these 148 people, 131 (or 89 percent) received the training and 17 (11 percent) did not. There
were no repercussions for employees who did not complete the required performance appraisal
training. Staff in HRM faced challenges trying to conduct training for people in different time




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                            13
zones around the world. Nevertheless, the agency needs to train every supervisor to make sure
they have the skills necessary to carry out their supervisory responsibilities.

The Peace Corps’ implementation of the Kate Puzey Act, which allowed PSCs to perform
inherently governmental functions, created new challenges for overseas supervisor training.
While PSCs can now supervise other staff, no supervisory training has been provided to them
and there is no one at headquarters who is responsible for providing supervisory training to non-
USDH staff. The agency’s 2013 supervisory performance appraisal training was not provided to
HCNs, only to USDHs. HRM has typically not included HCNs in its trainings and no one at
headquarters has a list of the HCNs who are supervisors, making it impossible to train them.


         The agency does not have a list of HCNs with supervisory responsibilities,
                  making it impossible to include them in required trainings.


As a result of these gaps in the supervisory training program, the agency is not equipping all
overseas supervisors with the skills and information they need. Forty-seven percent of our survey
respondents who identified as supervisors said they have not received sufficient training to carry
out their supervisory responsibilities. Not surprisingly, there was a difference between USDH
and HCN staff, with HCNs expressing an even greater need for training. Among survey
respondents, 64 percent of USDH staff with supervisory responsibilities said they received
sufficient training to carry out their supervisory responsibilities compared to only 45 percent of
HCNs in supervisory roles. In their comments, survey respondents expressed a need for a variety
of supervisory-related skills, such as performance management, coaching, writing statements of
work, and knowledge of labor laws.

       I have had no formal supervisory training from the Peace Corps aside from OST sessions that
       touched on supervision and last week’s DMO/FA [Director of Management Operations/Financial
       Assistant] conference. More approaches to supervision, dealing with difficult employees,
       coaching high performers, conducting effective performance reviews, etc. would all be very
       useful.

       Management of staff was not covered at all in OST yet it is probably the single largest
       component of a good work environment.

       We do not receive any training on how to supervise. Our trainings are on systems and initiatives
       coming from HQ [headquarters]. There are no trainings on providing quality staff evaluations,
       giving feedback, managing workloads etc. I have mostly made this up as I have gone along.

       I have supervisory experience from other jobs, but received no training on supervising others at
       the Peace Corps, other than training in how to fill out the forms. I think training on how to
       support staff to make performance goals and achieve them is essential, beyond just filling out
       paperwork.

Without proper training, supervisors might not have all the information and skills they need to
carry out their duties. This information is important for all staff, but particularly for HCN
supervisors who might not be familiar with U.S. personnel management laws and standards.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                     14
               We recommend:

                   4. That the director for human resource management
                      maintain a complete list of supervisors and provide
                      initial and refresher supervisor training to all staff in a
                      supervisory role, regardless of employment
                      classification.

                   5. That the director for human resource management
                      develop and implement a method to track supervisor
                      training for overseas staff and hold staff accountable for
                      completion of the training.


The agency was not consistently ensuring that overseas staff receives classified information
training.

Staff who have access to classified information are required to receive training before accessing
classified material and then annually thereafter. MS 405 “Classified National Security
Information” states that employees cannot have access to classified information until they have
received a classified national security information briefing. The MS also states that “All
employees and contractors who hold security clearances must attend a refresher briefing or
complete refresher training at least once a year.” This MS aligns with 32 C.F.R. part 2001
“Classified National Security Information,” which states that refresher training should be given
annually to employees who have access to classified information.

We determined that the annual refresher training has not consistently been provided. According
to training records provided by SS, annual refresher training was provided in 2011 and 2012 with
a 100 percent completion rate. However, no one in SS had training records for 2008–10 and no
one could confirm whether training had occurred. Staff acknowledged that the training was not
provided in 2013.

Furthermore, we discovered that that the agency’s list of clearance holders was not complete so
some staff was not notified of the training requirement. Although we were not attempting to
validate the completeness of the list, we realized that each year there was several OIG staff with
top secret clearances who were omitted from the list of people required to take the training. Staff
in SS did not know why some clearance holders were not on their list. We did not verify how
many agency-wide clearance holders were omitted from the list but these omissions may indicate
that the problem extends to staff in other offices.

If staff does not receive the required trainings, employees may put national security information
at risk by not properly safeguarding classified information.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                           15
                We recommend:

                    6. That the associate director for safety and security
                       ensure that classified information refresher training is
                       conducted every year as required.

                    7. That the associate director for safety and security verify
                       the accuracy of the clearance holder list.


The Peace Corps’ provision of local language training was inadequate for many staff,
particularly those in the Europe, Mediterranean and Asia Operations (EMA) region.

Since the earliest days of the Peace Corps, agency officials have recognized the importance of
language ability in order for overseas staff to be effective. In a 1961 memo to Franklin Williams,
the former head of the office responsible for hiring CDs, Dr. Robert B. Textor wrote the
following:

       I strongly believe that at least one member of each representative team should arrive on the scene
       already possessed of a deep understanding of the local language and culture…It is a mistake to
       believe that a representative can quickly pick up a knowledge of the language and culture while at
       the same time administering an active Peace Corps Program in that country… In those cases
       where the representative-designate is lacking in language and area preparation, I heartily
       endorse…appointing the representative sufficiently far in advance so that he can learn at least the
       rudiments of the host language at the Foreign Service Institute or some similar place.

The Peace Corps’ Working Overseas Guide, a resource for overseas staff and their family
members, states, “Your effort to learn a host country language will be an invaluable element of
your credibility both in the work place and socially.” Response data from the overseas staff
survey underscores the point that local language ability is central to fulfilling job responsibilities:
76 percent of survey respondents said it is either “somewhat important” or “very important” for a
USDH to speak the local language upon arrival at post.

Despite its perceived importance, local language training is lacking for USDH staff members
who work overseas. At the Peace Corps, overseas staff needing to strengthen local language
skills generally must seek learning opportunities once they are at post, as the agency does not
offer pre-appointment language training. Although Volunteers receive extensive language
instruction from professional trainers before beginning their service, the agency discourages staff
from attending pre-service training with Volunteers. The agency provides suggestions on where
                                              to obtain local language training in the Working
                                              Overseas Guide and reimburses related expenditures
   Local language training is lacking for     during the first six months at post, but the Peace
     American staff who work overseas.        Corps does not provide direct training or provide
                                              dedicated time during work hours when staff can
                                              learn the local language.

The Peace Corps often factors language ability into hiring and placement decisions for overseas
staff. According to survey data and our interviews with regional staff, the Europe,


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        16
Mediterranean, and Asia Operations (EMA) region tends to have more difficulty placing
qualified candidates with preexisting local language skills because of the diversity and difficulty
of languages spoken at posts within the region. The Africa and Inter-America and the Pacific
Operations (IAP) regions do not face this same degree of difficulty because they have more posts
where English is an official language and are able to hire candidates for overseas staff positions
who already are competent in French and Spanish, respectively the two most common official
foreign languages in the regions. The following graph shows the regional differences in overseas
staff’s reported need for language training.

                             Figure 3: Local Language Skills by Region
                     When you arrived at post, were your local language skills sufficient to
                                       carry out your responsibilities?
                                                        31%
        EMA                                                                     50%
                                         19%

                                                    28%
       Africa                         17%
                                                                                       56%

                                                       30%
         IAP         3%
                                                                                                     67%

                0%        10%         20%          30%         40%          50%          60%         70%
             Not applicable - I do not need a local language to perform my job duties.          No     Yes
                 Source: OIG survey of overseas staff
                 N = 104

In our survey of overseas staff, 68 percent of respondents said that the Peace Corps had not
supported them in obtaining local language training since assuming their overseas staff position.
Some staff commented on the insufficiency of funding and time available for language training.
Many staff found there was not sufficient time to seek and attend language training in the first
few months at post. Comments from staff reflect the challenges they have faced obtaining
language training:

       USDH employees should receive at least a month of intensive local language training before
       starting their job. Once you begin your position it is very difficult to find the time to commit to
       learning a local language.

       It goes a long way with staff if USDHs speak the local language. I tried doing it during my lunch
       hour but I was distracted and it didn’t stick.

       There are funds available but local language training is only available for the first six months at
       [post] and it is impractical to take language during the first six months in your position whether
       you’re new or coming from another post. There are just too many other higher priorities.

       My supervisor at the time was supportive of language training, however I was only able to do a
       little bit each week based on the demands of my job. [Peace Corps] provides gold package



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        17
        language training to [Peace Corps Volunteers] and then leaves USDH staff to fend for themselves.
        The agency should consider allowing staff to arrive early in country to do dedicated language
        training or perhaps join classes in DC at a private institute or [Foreign Service Institute].

Comparable federal agencies with personnel posted overseas provide language training to USDH
staff before sending them to their post. DOS, United States Agency for International
Development (USAID), and the Department of Agriculture’s Foreign Agriculture Service all
send overseas staff to the Foreign Service Institute for language training. These agencies’ hiring
schedules allow them to train staff months in advance of placement at posts, which provides
ample time for language training. The Millennium Challenge Corporation (MCC), which faces
staff term constraints similar to those of the Peace Corps’ five-year rule, provides online
language training to overseas staff and tracks usage.

The lack of sufficient language training impacts the Peace Corps’ overseas staff in several ways.
First, it potentially affects office dynamics when USDH staff members are unable to
communicate with HCN staff members in their native language. Additionally, language ability
can impact an employee’s ability to develop host country partner relationships and be seen as a
credible agency representative. Furthermore, the communication barrier limits staff’s ability to
both do their jobs and live day-to-day life, from traveling to visit Volunteer sites to buying
groceries or supplies for the post.

                 We recommend:

                     8. That the associate director for global operations
                        develop and implement an approach that ensures that
                        overseas American staff has the language skills they
                        need for their jobs.


Host country nationals were not receiving ethics training.

According to the Ethics in Government Act, at a minimum, all employees must receive ethics
training when they are hired:

        Each agency must have an ethics training program to teach employees about ethics laws and rules
        and to tell them where to go for ethics advice. The training program must include, at least, an
        initial agency ethics orientation for all employees and annual ethics training for covered
        employees.

The Office General Counsel (OGC) does not consider PSCs to be employees for the purposes of
this law. 16 When we spoke with an ethics official from USAID, we were informed that USAID
interprets the Ethics in Government Act to apply to everyone, including PSCs. Furthermore, it is
their policy to give annual ethics training to everyone, not just confidential filers.


16
  Under MS 002, any reference in the Manual or procedures to Peace Corps “employees” or “staff” includes PSCs,
unless excluded by operation of law or Peace Corps policy.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                       18
Excluding the few HCNs that are confidential filers, our analysis of training records found that
approximately ten percent of HCNs hired in 2008 or later have received ethics training. Those
who received ethics training typically only did so because they either attended OST or their post
senior staff decided to require all staff to take it.

Besides the federal requirement, there are practical reasons that PSCs should receive ethics
training. In 2003, the Peace Corps started incorporating a clause in PSCs’ contracts requiring
them to adhere to the U.S. federal government employees’ Standards of Ethical Conduct.
However, not all PSCs receive a hard copy of the Standards of Conduct to review before signing
the contract, and only 69 percent of overseas HCNs surveyed reported that they were adequately
informed of the Standards of Conduct. For staff who wanted to access an electronic copy, the
only version available was in English until copies in six other languages were made available in
May 2014. In an agency where many staff speak English as a second language, this is not a
practical means of ensuring that everyone understands the standards to which they are being
held.

Acceptable ethical conduct can be very different around the world, which has led our office to
investigate numerous allegations. OIG’s three most recent Semi-Annual Reports to Congress
include numerous references to violations of the U.S. Standards of Conduct by HCNs. Examples
include theft, acceptance of bribes, misuse of government property, fraud, abuse of position,
embezzlement, and solicitation of personal loans from agency vendors. Without proper training,
the Peace Corps is at risk of PSCs violating the U.S. Standards of Conduct.

                    We recommend:

                         9. That the general counsel require all overseas staff to
                            receive ethics training upon being hired.


Contracting officers were not receiving ongoing training.

Every Peace Corps post has at least one contracting officer (CO) who has the authority to enter
into, execute, administer, amend, and terminate contracts. These COs have a limited authority up
to $50,000 for personal service contracts and leases, and $25,000 for all other overseas
procurements.

According to a 2006 Office of Management and Budget (OMB) memo, all executive agencies,
except the Department of Defense (DOD), must adhere to the Federal Acquisition Certification
in Contracting (FAC-C) Program. The program establishes core requirements for education,
initial and continuous training, and experience. The memo exempts employees who were not
hired as part of the contracting series “whose warrants are so limited as to be outside the scope of
this program, as determined by the Chief Acquisition Officer.” 17 Because the staff members
typically responsible for being a CO, the DMOs and occasionally the financial assistant, are not


17
     The contracting series, also known as 1102s, is a hiring classification used by HR.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                            19
hired as part of the contracting series, the Office of Acquisitions and Contracts Management
(OACM) has chosen to set its own training standards.

Currently, COs receive a one-time 40-hour training on procurement and contract management
the week after OST. Immediately following the training, participants must take a test and score
80 percent or higher to receive their contracting warrant. In our survey of overseas staff, 78
percent of COs reported that the training helped to prepare them for their responsibilities.

While initial training of COs is adequate, we determined that there was a need for ongoing
contracts training. Often DMOs receive their CO training before ever going to a post. Much of
the training can be overwhelming and some participants may not fully understand the realities of
their responsibilities. In our survey of overseas staff, many COs reported that there was a need
for additional training. Several COs included comments such as:

        One time training isn’t enough—you need to revisit items and offer clear documentation for
        people to refer back to as they apply what they learned.

        Initial training was good but there needs to be more follow up trainings as everything changed a
        great deal with Kate Puzey Act.

        I received 40 hours [of] training for [being a contracting officer], however, if possible this needs to
        be increased or [Peace Corps] should offer refresher trainings at least every two years.

While the FAC-C program requires acquisition professionals to earn 80 continuous learning
points every two years, OACM currently does not provide any formal continuous training
outside the presentations given at regional DMO conferences. 18 A continuous learning program
similar to the FAC-C’s program, which allows COs to receive training credit through a variety of
activities such as mentoring, attending conferences, or taking informal and formal trainings
(many of which are available online), would enhance COs’ skills, meet their identified needs,
and reduce risk to the agency.

During our evaluation we learned that OACM had reduced its staff to just three people dedicated
to overseas staff support. OACM reported that they are functioning in “survival mode” with
barely enough time to respond to daily needs let along develop the recommended ongoing
training. We acknowledge that this is a significant barrier. Insufficient staffing has been a
recurring issue that was also addressed in the report IG-10-06-A Final Audit Report: Peace
Corps’ Process for Soliciting, Awarding, and Administering Contracts (March, 2010). Because
these resource issues persist, we are including a recommendation that OACM receive the staff
necessary to allow them to respond to the training needs of overseas staff.




18
  Continuous learning points can be earned through activities designed to enhance a CO’s acquisition skills,
improve the quality of skills rendered, and provide opportunities for professional growth.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                             20
                    We recommend:

                        10. That the chief acquisition officer hire the staff necessary
                            to support the training needs of overseas contracting
                            officers.

                        11. That the chief acquisition officer develop continuous
                            learning requirements for overseas contracting officers.


Contracting officer representatives were not receiving the training required by the Federal
Acquisition Institute.

Contracting officer representative (COR) can be an additional role that federal employees hold
along with their primary position. The role of a COR is to assist in the technical monitoring or
administration of contracts. Previously, PSCs were not allowed to serve as CORs because it was
an “inherently governmental function so intimately related to the public interest as to mandate
performance by Government employees.” The Kate Puzey Act, as mentioned previously,
changed the restrictions on PSCs, and now MS 743a “Personal Services Contracts with Host
Country Residents” states that PSCs may perform inherently government functions such as
contracting officer duties. As employees under MS 602 “Foreign Service National (FSN)
Personnel Administration,” FSNs may also act as CORs.

In a 2007 memo, OMB established a structured training program for CORs for all executive
                                               agencies, except DOD. 19 The Federal Acquisition
                                               Institute is charged with administering the program
   Headquarters does not track who the         and providing guidance. The COR training program
                                               requirements were later updated in 2011 when OMB
  overseas CORs are or ensure that they established a “risk-based, three-tiered certification
       receive the required training.          program for civilian agencies that better reflects the
                                               important role of the COR.” Depending on the size
                                               of the contracts the COR will manage, he or she
                                               must complete one of the three certification
programs: Level I, II, and III. Each level of the program includes varying requirements for
experience, training, and continuous learning. Unlike the FAC-C program, the Federal
Acquisition Certification-Contracting Officer Representatives (FAC-COR) is not restricted by
hiring designation and therefore applies to all overseas CORs.

While the Peace Corps is not currently adhering to the requirements outlined by the FAC-COR
program, the limited scope of overseas CORs would probably make them eligible for Level I
COR. Level I certified CORs are generally suitable for low risk contracts, such as supply
contracts and orders. They are required to receive eight hours of initial training and eight hours
of continuous learning points every two years.


19
     In 2007, CORs were called contracting officer technical representatives.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                21
The Peace Corps’ overseas CORs are not receiving training that would comply with Level I
FAC-COR requirements. Currently, COs at posts are responsible for training CORs. While
OACM reported that they make it clear during training that post COs need to train their CORs,
we found no guidelines as to how that training should take place or what should be covered.
Despite the requirement in MS 131 “Office of Acquisitions and Contract Management:
Organization, Mission, and Functions” that requires the procurement policy team to track COR
training, OACM does not provide oversight to ensure that COR training is happening and does
not even keep track of who the CORs are or how many are at each post.

Although the dollar value and risk of the contracts overseas CORs oversee is low, the Peace
Corps still has a responsibility to ensure that CORs are receiving the proper training. While
training may still be left to the posts’ COs, guidelines should be established to ensure that all
CORs are receiving training in accordance with FAC-COR.

               We recommend:

                   12. That the chief acquisition officer require contracting
                       officer representatives to be certified in accordance with
                       the Federal Acquisition Certification-Contracting
                       Officer Representatives requirements.

                   13. That the chief acquisition officer maintain a record of
                       overseas contracting officer representatives, provide
                       oversight to ensure Federal Acquisition Certification-
                       Contracting Officer Representatives program
                       compliance, and manage and track training
                       participation.


The agency lacks an effective tracking and follow-up system for purchase card trainings.

Purchase cardholders and approving officials are required by presidential directive (OMB
Circular A-123, Appendix B) to receive a refresher training at least every three years, as well as
to “certify that they have received the training, understand the regulations and procedures and
know the consequences of inappropriate actions.” Copies of training certificates must be
maintained to ensure compliance with this requirement.

Training data reviewed during the evaluation revealed that purchase cardholders and approving
officials are not consistently receiving the required refresher training. According to the data we
reviewed, nearly 30 percent of cardholders and 35 percent of approving officials were overdue
                                                for the training. While OACM had some training
                                                certificates for cardholders and approving officials,
  Nearly 30 percent of cardholders and 32 several were missing or expired. Prior to 2014, staff
     percent of approving officials were        in OACM did not have a system to track training
     overdue for purchase card training.        dates of cardholders and approving officials;
                                                purchase cardholders and approving officials were



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                               22
expected to remember when they were due for refresher training and complete it every three
years, typically without prompting from the agency.

This same deficiency has been documented before. The IG-09-08-A Final Audit Report: Peace
Corps Purchase Card Program (March, 2009) found that OACM could not provide evidence that
staff had received the follow-up training. The audit recommended that the chief acquisition
officer update MS 731 “Peace Corps Purchase Card Program” and “establish a process for the
agency program coordinator to receive and maintain training certificates.” The chief acquisition
officer at the time stated that “OACM will establish a tracking system of cardholders and
approving officials that require refresher training and will send out monthly notices.” The
recommendation was subsequently closed. However, turnover led to at least three people holding
the purchase card program coordinator position since 2009. Any tracking system previously in
place had apparently been discontinued, and OACM did not provide evidence of a new tracking
system, though one was purportedly being developed. This inconsistency can be attributed to the
fact that an effective tracking system had not been formalized as a standard operating procedure
for the purchase card program.

Without a tracking system, the agency was unable to ensure that cardholders and approving
officials were informed of the most current requirements of the program. This deficiency could
have been prevented had the system implemented in 2009 been more firmly established as part
of the agency’s procedures rather than discontinued due to turnover.

               We recommend:

                   14. That the chief acquisition officer establish and
                       implement a formal verification and follow-up process
                       to ensure purchase cardholders and approving officials
                       are receiving required training.


The Peace Corps’ training requirements for travel card holders differs from federal
requirements.

Peace Corps staff can receive government travel cards to pay for official travel-related activities.
There are two types of travel cards, centrally-billed and individually-billed. According to the
Peace Corps’ Traveler’s Handbook, “Centrally billed cards are made available to administrative
or other staff as a mechanism of payment for travel and/or travel services of a non-personal
nature.” Individually-billed cards are provided to USDH staff in lieu of travel advances for
official travel expenses and cash advances.

There are discrepancies between the federal training regulations for travel card holders and the
Peace Corps’ policies and procedures, although staff in the transportation division stated that the
related MSs were being revised. OMB Circular A-123, Appendix B states that cardholders,
charge card managers, approving officials, and other accountable/billing officials must receive
training prior to appointment and receive refresher training every three years. In comparison,
Peace Corps’ MS 706 “Individually Billed Travel Card Program–Overseas Procedures” requires



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                             23
cardholders to take the online training within 60 days of receiving the card. 20 The agency’s
policy and procedures for centrally-billed cardholders do not provide a timeframe for training
completion or mention the need for refresher trainings. The following table shows some key
differences between OMB regulations and Peace Corps policy.

                  Table 2: Differences between OMB Regulations and Peace Corps Training
                                               Requirements
                                                                                     Peace Corps
                                                     OMB Requirements
                                                                                     Requirements
      Individually-billed travel card:
                                                                                     Within 60 days of
           Timing of initial training                Prior to appointment
                                                                                     receiving the card
         Requirements for refresher training         Every three years               None
      Centrally-billed travel card:
                                                                                     No training timeframe
           Timing of initial training                Prior to appointment
                                                                                     provided
           Requirements for refresher training       Every three years               None
       Sources: OMB Circular A-123, Appendix B; MS 703 Centrally Billed Account Travel Card Program - Overseas
       Procedures; and MS 706 Individually Billed Travel Card Program - Overseas Procedures.

Furthermore, the agency does not currently have a specific training for centrally-billed
cardholders. Instead, they use the same training that individually-billed cardholders use even
though some of the processes and procedures they follow are different.

Compliance with the OMB travel card regulations has been inconsistent over time but is
improving. In the past, people were issued a card and given 60 days to take the training but no
one followed up to make sure the training was actually taken. The current travel card manager
has been making improvements to the program. He has a good understanding of federal travel
card regulations and is implementing them despite the discrepancies with Peace Corps’ policies.
He has also recently been auditing the travel card files and training records. The current travel
card manager has started tracking training, providing cards only after training has been taken,
following up when needed, and suspending accounts when possible. Providing oversight and
making sure people know how to properly use their government travel card helps reduce errors
and abuse. This oversight should be, however, part of the agency’s processes and procedures, not
something that is dependent on one individual and can change when there is turnover.

                    We recommend:

                         15. That the associate director for management update
                             agency policy for both individually-billed and centrally-
                             billed travel cards to reflect federal travel card training
                             regulations.



20
     The application instructions provided to cardholders require them to take the training immediately.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        24
                  16. That the associate director for management develop,
                      document, and implement a process to ensure that
                      travel card holders and approving officials receive the
                      required training.

                  17. That the associate director for management develop
                      and implement a training for centrally-billed travel
                      card holders.


The Peace Corps did not verify that new overseas staff received mandatory information
security training and did not enforce consequences when annual training was not taken.

Peace Corps staff is required to take information security training upon being hired and annually
thereafter. According to the Federal Information Security Management Act of 2002 and OMB
Circular A-130, initial information security training is mandatory for all staff before they can
access agency information systems. Additionally, the agency is required by National Institute of
Standards and Technology Special Publication 800-53 to document and monitor individual
information system security training activities and retain training records. Despite these
requirements, no one at Peace Corps headquarters had evidence that initial information security
training was completed by any overseas staff member. IT specialists at posts were responsible
for activating network accounts for new staff but they were not required to send any verification
of training completion to Peace Corps headquarters.

On an annual basis, OMB memo 07-16 requires all staff to take annual information security
refresher training “to ensure employees continue to understand their responsibilities.” While
most overseas staff took the mandatory training, we discovered that there were no consequences
for staff who did not meet the training requirements in 2013 and 2012. Although OCIO emailed
staff and stated that their accounts might be deactivated if the training was not taken by the
deadline, the agency never deactivated any accounts.

Without a process to verify that overseas staff has received information security training, OCIO
cannot ensure that the agency complies with federal information security laws and staff might
not be receiving mandatory training. If staff is unaware of the relevant information security
policies, procedures, and risks, agency data and information systems are more exposed to
external or internal threats. Furthermore, the agency needs to enforce consequences when staff
does not take the required training by deactivating their accounts. By not restricting access,
uninformed users could expose the Peace Corps to information security risks.

               We recommend:

                  18. That the chief information officer develop and
                      implement a method to track information security
                      training completion for overseas staff and enforce
                      consequences for staff who do not meet the training
                      requirement.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                          25
          SECTION B: IDENTIFICATION OF SYSTEMIC ISSUES
In the previous section we discussed issues related to specific trainings for overseas staff. In the
process of analyzing individual trainings, we also found systemic problems that impacted many
of the trainings previously discussed and created considerable challenges for the agency as a
whole. The issues discussed in this section are related to training management and organization,
staff’s training needs, and accessing and managing data.

While we believe that the recommendations we made in the previous section are important and
need to be addressed, resolving them will only provide a temporary solution. Unless the larger,
under-lying issues are resolved, more problems related to the overseas staff trainings will
ultimately arise, and the training that the Peace Corps provides to its staff will remain minimally
acceptable both in quality and sufficiency.

To achieve Peace Corps’ strategic goal of becoming a learning organization, the agency will
need to substantially alter the way it delivers training to overseas staff. The recommendations in
this section are not meant to be quick fixes that are easily resolvable and forgotten. We are
asking the agency to make a dramatic shift in the way it delivers training to its overseas staff that
is driven from the top. The changes we propose will require time, money, and careful
consideration and planning.

TRAINING MANAGEMENT AND ORGANIZATION

The Peace Corps’ decentralized approach to training overseas staff causes inefficiencies and
gaps.

The Peace Corps does not have a central office that develops, manages, and coordinates the
training of overseas staff, and there is no one person or team of people to develop a learning
strategy and ensure that all employees are trained on mandatory and job-essential topics. The
responsibility for managing training is largely decentralized, with different headquarters offices
and posts responsible for identifying training needs, developing and delivering training, and
using their own methods and systems to track training participation.


                     The Peace Corps does not have an office or person to
                       coordinate training for host country nationals, the
                      largest portion of Peace Corps’ overseas workforce.


One significant organizational gap is the lack of an office or person to coordinate the training for
HCNs, which make up over 90 percent of the Peace Corps’ overseas workforce. HRM only
coordinates new hire training for USDHs; they do not provide training for FSNs and PSCs. As
the coordinator of OST, OPATS plays the biggest role in coordinating training for overseas staff



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                              26
members. However, only a small percentage of overseas staff attends OST, and there is no one at
headquarters who coordinates training for all of the PSCs and FSNs who do not attend OST.

Numerous agency offices have specific positions or teams of staff responsible for delivering
training to overseas staff. These offices have assumed responsibility for the trainings pertinent to
their areas of expertise. The following graph depicts the way training is delivered to overseas
staff. Many offices use OST as a conduit for essential information but they do not have a way to
deliver this content to people who do not attend OST. Other offices provide training directly to
overseas staff, although a person’s employment classification (USDH, PSC, or FSN) may impact
if, how, and when training is delivered. The result is a fairly unorganized approach to staff
training.

             Figure 4: Graphical Depiction of the Peace Corps’ Training Organization21




21
     This graphic is not intended to provide a full picture of every Peace Corps office and the trainings they provide.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                                 27
In an attempt to coordinate the efforts of all these offices, the agency created a Learning Council
in 2013. It was a large group with representatives from numerous offices throughout the agency:
a December 2013 meeting invitation had over 40 invitees. The group developed a 2014 training
calendar, although it was not widely communicated, and attempted to create an inventory of
training events. As one participant stated, “Its formation speaks to how desperately we need to
get it all organized…Everyone does it in their free time; it is an enormous task.” The group’s last
meeting was in December 2013; in 2014 it was suspended so it could be restructured. Agency
records indicate that this is not the first time the agency has attempted to coordinate and manage
training through a committee. The June 2010 Comprehensive Agency Assessment makes
reference to a “Staff Training and Development Council” that “was formed as a ‘forum for
developing an organization-wide staff training and development vision and mission.’” It is
unclear what the committee accomplished because we were unable to find related
documentation. The agency’s repeated attempts to develop a committee for staff training indicate
a need for more coordination, although experience has shown that the committee approach has
limited success and is not sustainable.

An increasing number of federal agencies have created a Chief Learning Officer (CLO) position
to oversee their agency’s training. A senior-level position originally created for the corporate
world, the CLO directs the planning and execution of the agency’s education, training, and
development programs to ensure performance gaps are closed, maximum effectiveness is
achieved, and organizational goals are met. The CLO typically reports to the head of the
organization, such as the director or chief executive officer. The Peace Corps does not have a
CLO position. The lack of a recognized office or a senior official to oversee and coordinate
training has affected the agency’s training strategy, particularly e-learning; the number of
training practitioners throughout the agency; how the training budget is managed; and the
agency’s ability to meet federal training mandates.

Training Strategy Development and Implementation. The agency lacks a senior official who
can develop a learning strategy for the entire agency and then ensure the Peace Corps has the
critical resources, both financial and personnel, needed to implement the strategy. Although the
Peace Corps’ strategic objective number nine is to “Cultivate a high-performing learning
organization by investing in professional development for staff, improving staff retention, and
strengthening institutional memory,” there is no one coordinating the efforts of the many offices
who deliver staff training to make sure this objective will be achieved as efficiently as possible.
Some of the training staff in offices who deliver training to overseas staff were unfamiliar with
the specifics of strategic objective nine and did not know how their training aligned with the
strategy. To achieve this goal, the agency will need a designated manager who understands staff
training needs and how the numerous training events that are delivered across the agency work
together.

A specific issue raised during the evaluation was the lack of an agency-wide e-learning strategy.
With a workforce spread across the world, online learning modules are one way to deliver
training content that cannot be delivered in person. But the agency does not have an e-learning
strategy nor has it assessed the best way to deliver online content to staff in countries with
unreliable or slow internet access. Currently, OPATS staff is working on an e-learning strategy.
To be successful, they will need to assess the extent to which online learning is practical for



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                            28
overseas staff and get buy-in from the many other offices that develop and deliver online training
to overseas staff. They will also need support at the highest levels of the agency to ensure there
are enough resources to implement the strategy.

People also raised concerns about the tools needed to develop online learning modules. During
the evaluation, we learned that different offices are using or independently exploring different
tools and software. This is an inefficient use of the agency’s resources. Once the agency has
developed its e-learning strategy, it will be better positioned to select the appropriate tools and
software for developing online learning modules and ensure the right people have access and
training to use the tools.

Training Practitioners. With the absence of a centralized office or group of staff who manage
and oversee staff training, individual offices have taken different approaches to obtaining needed
training resources. Some offices have personnel who are dedicated to staff training while many
others have incorporated training into someone’s numerous other responsibilities. Examples of
offices that have dedicated training staff include OPATS, OHS, SS, and HRM, to name a few.
These training practitioners are dedicated to training and have relevant backgrounds and
experience in adult learning or instructional design. But other offices, including some who are
required to deliver federally-mandated training, do not have dedicated training resources or have
staff with a background in training. These resource differences make it difficult for offices to
provide the same level of focus on training.

Along with the resource differences, people also expressed a need to clarify roles and
responsibilities. Because some offices have no training staff, their subject matter experts might
have to partner with training practitioners in other offices to develop and deliver training. For
example, one of the experienced training practitioners in OPATS or SS may need to work with
people in other offices to help them design a high quality training that adheres to training best
practices. Training practitioners reported the challenges they faced when subject matter experts
disagreed with them on training content and testing schedules and there was no clear decision
maker to resolve the issues. Training practitioners reported that unclear roles and responsibilities
have led to implementation delays and quality concerns. Unclear roles and responsibilities have
also created confusion for people who want to develop online learning modules. Staff in some
offices was unclear who to contact if they want to develop online training.

Budget Management. Another issue we uncovered is that the Peace Corps has no clear
understanding of how much it is spending on training for overseas staff. For instance, during our
review we could neither determine how much the agency had budgeted for staff training nor
calculate how much was actually spent. Very few offices have a budget dedicated to staff
                                        training, and with the exception of SS and OHS, most
                                        offices do not have a significant budget for any form of
  We could not determine how much overseas staff training, regardless of whether or not
 Peace Corps spends on staff training. they are mandated to deliver a training. The lack of
                                        budget could inhibit some offices from developing the
                                        meaningful training they would like to deliver to
                                        overseas staff.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                 29
Most of the training costs are related to travel expenses and per diem, and these costs are usually
paid from regional operations’ budgets. It is difficult, if not impossible, to determine how much
each region spends on training overseas staff because of the way training is budgeted and
coded. 22 While we were able to determine with some certainty that the Africa region spent the
most money on training from FY 2008-13 followed by IAP, further comparisons would not be
meaningful. In addition, we were not able to compare staff training expenses across posts to
determine average spending per employee or identify posts that spend more or less than others.
This information would be valuable for agency managers, but it is unavailable.

The Government Accountability Office 2012 report on “Federal Training Investments” states
that “Federal agencies…need reliable information on how much they spend on training and for
what purposes.” However, the Peace Corps does not have this data. Given the increasingly
constrained budgets for federal training, Peace Corps should ensure that their training efforts are
cost effective.

Although we are unable to determine how much money posts received for staff training, there is
a general consensus amongst overseas staff that it is not enough. In our survey of overseas staff,
53 percent of respondents identified budget constraints as a factor preventing them from
obtaining needed training. In addition, 57 percent of respondents who identified themselves as
supervisors disagreed with the statement that there is enough money in the budget to provide
training to new staff. One staff member commented, “For ongoing training … I am told time and
again that there is no funding line for such an item and is only possible with end-of-year funds.”
Without having access to training spending data, it is difficult to assess how much more money,
if any, is needed to achieve the agency’s strategic objectives.

Meeting Federal Training Mandates. Without a senior official in charge of coordinating and
overseeing training, we found that the agency lacks someone who is familiar with all of the
federal training mandates and who will make sure these requirements are met. We found
instances of federally mandated trainings, such as
supervisory training and access to classified
information, that had not been conducted for years, yet       No one is making sure that
there appeared to be no repercussions for the offices in   federally mandated trainings are
charge of those trainings and there was not a senior
official making sure that the responsible offices got the    delivered as required by law.
funding and resources needed to implement the
trainings. We also found examples of federally
mandated trainings that are not managed and tracked by a designated manager so they are not
being conducted for any staff. Federal laws such as the Plain Writing Act of 2010, Drug Free
Workplace Act of 1988, and Notification and Federal Employee Antidiscrimination and
Retaliation Act of 2002 (No FEAR Act), to name a few, are all required trainings that the Peace
Corps is not providing. 23 Even though the Peace Corps relies on many different offices and posts

22
   The budgetary accounts do not have a specific overseas staff training code. Instead, the fiscal coding handbook
includes three different object classes that could include staff training: staff development training, conference costs,
and conference travel. Each object class is subcategorized into purpose codes.
23
   See Appendix B: Other Mandated Trainings for more information.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                                30
to provide federally mandated training, there still needs to be oversight of these trainings within
the agency, preferably from senior staff.

We believe that the agency would benefit greatly from having a senior official in charge of
overseeing training and coordinating the activities of the numerous offices throughout the agency
who develop and deliver training. Currently, there are numerous offices working separately to
identify training needs and deliver training to overseas staff. Although there are times when little
to no inter-office coordination is needed, there are many times when these offices would benefit
from closer coordination. Based on past experiences at the Peace Corps, it does not appear that
trying to coordinate training with a committee is effective. Having a dedicated person to manage
training would help ensure the agency not only had a training strategy, but also a clear way to
implement the strategy, including the necessary personnel and financial resources. This person
could also help make sure training events, particularly those that fulfill federal training
requirements or are critical for staff learning, are not overlooked when the agency is faced with
competing priorities.

               We recommend:

                    19. That the chief of staff designate responsibility for the
                        oversight and authority of the Peace Corps’ staff
                        training program.


The lack of well-documented training programs, combined with frequent turnover, undermine
the Peace Corps’ ability to consistently deliver and track training.

Two of the Peace Corps’ biggest challenges are managing frequent staff transitions and a lack of
institutional memory. The IG-12-05-E Final Evaluation Report: Impacts of the Five-year Rule on
Operations of the Peace Corps (June, 2012) explores areas where the personnel rule has created
challenges for the agency, including staff training. In addition, the Comprehensive Agency
Assessment discussed the problem in detail:

       There is a lack of institutional memory to support decision-making, strategic planning, and
       operations [which] exists on all organizational levels…making work at Peace Corps what one
       programming and training officer recently called, ‘The Toughest Job You’ll Ever Re-
       Invent’…Worthwhile projects or programs may suffer when key personnel supporting or
       managing them leave. The current lack of handover notes, overlaps, or other transition
       management approaches, further exacerbates this challenge.

Training is one of several areas impacted by the agency’s lack of institutional memory and
insufficient transition management. The lack of formal systems, processes, and job-based
responsibilities has created training gaps and inconsistencies over time. During the evaluation,
we identified trainings that have not consistently been conducted and training records that were
either never maintained or were not kept when people left the agency. Examples include the
trainings for purchase cardholders, supervisors, and access to classified materials (see Section A
for more information). Some of these gaps were caused because the personnel formerly
responsible for delivering and tracking training left the agency or changed positions and their



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                31
incoming replacements did not find explicit training procedures or effective monitoring systems
in place.

Because the Peace Corps is an agency with high staff turnover, there is a particular need for
systems to be well-established and documented so that training responsibilities, processes, and
maintenance of records are consistent despite staff transitions. Firm establishment and
documentation of systems will not only improve consistency and ensure compliance, it will
enable the staff who are responsible for training delivery and tracking to learn from previous
efforts, make improvements, and build institutional memory.

                We recommend:

                    20. That the chief of staff ensure that there are standard
                        operating procedures that document how required
                        trainings are delivered and monitored.


STAFF’S TRAINING NEEDS

The lack of a training needs assessment process hinders the agency’s ability to provide
sufficient position-specific training.

In recognition that “…host country national staff often serve longer than American staff and
have very different professional development needs,” the agency’s 2014-18 Strategic Plan
identifies the development of a competency and skills assessment program for the Peace Corps
domestic and overseas staff as a key activity towards making the agency a high-performance
learning organization. The Peace Corps’ Comprehensive Agency Assessment also places a strong
emphasis on understanding and meeting the training needs of overseas staff. The agency’s
framework for improving the professional development of overseas staff is described as a
“continuum of learning” which involves an assessment of each overseas staff position to
determine job competencies. From this position-by position analysis, learning objectives can be
derived and trainings developed in a variety of mediums to meet increasing job demands.
Although staff in OPATS has been working on a continuum of learning for some positions, the
work is still underway.

Our analysis indicated that the agency still has some progress to make to meet its goals regarding
overseas staff training needs. Employee Viewpoint Survey responses aggregated from 2010
through 2012 showed that only 31 percent of overseas USDHs agreed that their training needs
were assessed. 24

At the Peace Corps, the training of overseas staff varies greatly depending on their position and
post. Some overseas staff receives consistent, ongoing training. Almost all CDs, DPTs, and
DMOs attend OST shortly after assuming their position. Depending on budget, CDs, DPTs,
24
  The Employee Viewpoint Survey is administered to domestic and overseas USDH employees. It is not completed
by FSNs and PSCs.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                    32
DMOs, and PCMOs also attend annual position-specific conferences. PCSSOs and SSMs attend
a conference at least every other year. For the rest of the staff, however, ongoing training is
inconsistent and staff is expected to primarily learn on the job. For some positions, particularly
for staff who work in the general services unit at post, there is no formal training program at all.
In their survey comments, staff noted the differences in the training provided to various
positions, and staff repeatedly requested regular, formal training for the positions that do not
regularly attend OST or periodic regional conferences. The following survey comments reflect
the frustrations felt by some staff:

         There are entire positions that never receive any type of training from Peace Corps, not even OST.
         These are staff that hold key roles, yet never have the opportunity to network with other people
         from other countries or receive any type of training on how to do their job from the agency itself.
         LCC/LCF's [Language and Cross Cultural Coordinator /Language and Cross Cultural Facilitators],
         Master Trainers, PTS/PS [Programming and Training Specialist/Program Specialist], Program
         Assistants, etc. The Sector APCD's also have very few opportunities beyond OST.

         Training should cut across the board. Each employee of the Peace Corps should have the
         opportunity at least once a year to travel and train and learn best practices from colleagues of
         similar positions. We should not have some people travel the world three times annually [to
         trainings that] add to their resumes, while others remain untrained.

In addition to the training gaps identified for specific positions, training inconsistencies were also
noted for the roles a person may take on in addition to his or her primary function. Peace Corps
staff who serve as Sexual Assault Response Liaisons (SARL), for example, received one week of
intensive training when the program was first launched in the summer of 2013. 25 In contrast,
until April 2014, acceptance point clerks and medical supply inventory control clerks received no
training or instruction outside the information provided by their supervisor or co-workers. 26,27
Although PCR conducted a workshop for some of the coordinators and contacts, there is still a
need for more training. One response coordinator commented:

         I am really hoping that Response DC will consider something for capability and training… I
         would appreciate it a lot to see how other countries are doing Response. But Response
         coordinators are not part of OST since you are not part of the regular program. So there is nothing
         for us.

The following table lists several extra roles a staff person may have, the percent of people who
reported receiving related training, and the percent of people who did not receive training but
think it would have helped them perform the role.




25
   SARLs respond to Volunteers who report that they were sexually assaulted.
26
   According to the Peace Corps Manual (MS) 734, the Acceptance Point Clerk “is responsible for receiving all
medical supplies at post and coordinating initial inventory and transfer to the Medical Office.” The medical supply
inventory control clerk maintains the Medical Inventory System.
27
   On April 28, 2014, OHS sent CDs and PCMOs a training video on MS 734: Medical Inventory Management.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                             33
                                        Table 3: Training for Extra Staff Roles
                          28
               Position                 Percent who received training              Percent who reported that
                                        related to their responsibilities          training would help them
                                                                                      perform their duties
     SARL 29                                           94%1                                   N/A
     Contracting Officer                               90%2                                   N/A
     Duty Officer                                      87%3                                  68%8
     Subcashier                                        74%4                                  78%9
     PCR Coordinator or point                          48%5                                  87%10
     of contact 30
     Acceptance Point Clerk                            47%6                                    83%11
     Medical Supply Inventory                                                                  94%12
                                                       47%7
     Control Clerk
     Source: OIG survey of overseas staff. 31

Staff also expressed a need to receive refresher trainings for their roles as well as training on
skills that are less position-specific, such as computer skills, working with Americans, or
working with people from different generations.

Without a full understanding of people’s roles and responsibilities, it is hard for managers to
accurately identify staff training needs. In the survey administered by OIG, only 55 percent of
respondents stated that their supervisor had discussed their training needs with them. Staff voiced
their concerns in the OIG survey

           There is very little systematic thinking about the nature of the position, the KSAs really required
           for this position, and how to train for those gaps one has when coming into the agency.

           Before one can identify the knowledge gap that will require additional training, one must clarify
           the roles and responsibilities of each position. This can only be done after a thorough
           functional/task analysis.

           We need a smart and strategic overseas staff professional development/training continuum, much
           like we are trying to craft for Volunteers.

           I think a good training plan should be provided for the job the person is supposed to do and their
           superior should be on top of this training to be fulfilled.

OPM recommends that agencies conduct a needs assessment “to identify performance
requirements and competencies needed by the agency in order to achieve the agency mission.”
Furthermore, “agencies are required to periodically assess (at minimum annually) the overall

28
   The duties reflected in the table represent only some of the many job responsibilities staff might perform in
addition to their primary position.
29
   Data in the table reflects survey respondents’ self-reported data obtained in February 2014. Although 94% of
respondents who identified themselves as SARLs stated that they received training, training records indicated that
100% of SARLs received training as of September 2013.
30
   This position can be a full-time primary position or an additional add-on position. Only posts with PCR
Volunteers have staff serving as PCR Coordinators or points of contact.
31 1
     n = 46, 2n = 109, 3n = 258, 4n = 26, 5n = 34, 6n = 16, 7n = 16, 8n = 25, 9n = 7, 10n = 32, 11n = 15, 12n = 15



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            34
agency talent management program to identify training needs.” The Peace Corps does not have a
needs assessment process at an organizational level nor does it have a standardized way to assess
individual employees’ training needs.
In order to meet staff training needs, the agency must first assess the baseline training content
that all overseas staff members should receive. This assessment must determine which federally
mandated trainings should apply to all staff as well as the essential background information,
procedures, and policies that any person working at the Peace Corps should know. The baseline
training needs assessment should inform the development of a standard onboarding and initial
training as well as the ongoing training plans for each employee.

In addition to determining the general training requirements, the Peace Corps must identify the
job-specific training necessary to fulfill all needs for each individual position and job
responsibility and integrate this training into scheduled
learning plans. The 2010 Comprehensive Agency
Assessment discussed the agency’s efforts to develop a The agency does not systematically
continuum of learning as well as competencies and
learning objectives for three positions – the CD, DPT,            assess staff training needs.
and DMO. But, as this report has emphasized, the
percentage of staff in those positions is small (eight
percent of the staff working overseas), and everyone needs to receive sufficient training.
Conducting a comprehensive assessment of training needs and implementing related training will
not only lead to performance improvements across all posts and job functions, it will yield a
structured professional development path for each agency employee and support the Peace
Corps’ vision of becoming a high-performance learning organization.

               We recommend:

                   21. That the chief of staff develop and implement a process
                       to conduct staff training needs assessments on an
                       ongoing basis.


The Peace Corps does not have a comprehensive, required training for all new overseas staff.

Improved initial training for new overseas staff has been recommended for several years. The
2010 Comprehensive Agency Assessment recommended that OPATS develop a basic orientation
for all overseas staff and that posts develop training plans for current and new staff members. In
addition, the Agency’s Strategic Plan for 2014–18 says that the agency should “Review and
standardize the on-boarding process for all staff, including …post-based orientation.” While the
Peace Corps has recognized the importance of initial training for staff development, it still has
not developed a standardized, thorough, and mandatory onboarding training for new overseas
staff.

Currently, training provided to new overseas staff varies depending on a person’s post, position,
and supervisor. Although the agency has several platforms for training new staff as well as
modules intended to serve as guidance for an orientation process, there is no standardized initial



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                           35
training and no requirement that new overseas staff take a standardized training. Furthermore, no
one tracks whether new staff has taken advantage of the initial training materials that have been
developed.

Although OST provides a lot of valuable information for new staff who get the opportunity to
attend, the agency cannot rely on it to train all new employees because so few overseas staff
members attend. Our analysis of OST data found that 18 percent of current overseas Peace Corps
staff hired between 2008 and 2013 has attended OST. When we examined the data by hiring
classification, we found that only nine
percent of HCNs have attended OST. Of
those HCNs who did attend, 57 percent          The agency relies too heavily on OST to train new
did not attend until at least a year after
being hired. For these reasons, OST does staff; less than ten percent of HCNs hired between
not serve as a comprehensive initial                    2008 and 2013 have attended.
training for all new overseas staff
members.

OIG staff survey results show that staff who do not attend OST within the first few months of
employment are less satisfied with their training. Among staff members who attended OST
before starting their current job or within the first three months, 87 percent rated their initial
training as adequate or better, compared to only 60 percent of those who did not attend OST.
More than a quarter of this latter group said that they did not receive initial training at all.

For staff members not attending OST, responsibility for initial training falls to posts. Supervisors
at posts are tasked with determining training needs for new hires and ensuring they are met. The
busy schedules of post staff combined with variable hiring cycles and the lack of a checklist or
standard documentation process make this task very challenging at many posts. Among
supervisors responding to our survey of overseas staff, only 33 percent agreed that they have
enough time to provide training to new staff. Several supervisors elaborated:

       Inadequate time is the number one barrier—to both thoroughly assess the training needs and
       prepare and provide the training needed.

       Time is a huge limitation. Few experienced staff has time in the schedules to dedicate to
       adequately training new staff members.

To improve the initial training for overseas staff, the Peace Corps has begun to develop guidance
and content for an orientation process, although taking the trainings is not mandatory. One of the
training vehicles developed is the “Overseas Staff Orientation Guide,” which is available through
PCU. This guide is available in English, Spanish, and French, and includes six modules:
Introduction to the Peace Corps, working with U.S. Americans, Safety and Security, Health and
Well-being, Programming and Training, and Administration. Several key topics are covered in
the guide, including ethics, safety and security policies, privacy protection and confidentiality;
however, the agency does not require that new staff complete these training modules or track the
training of those who do. PCU is supposed to allow for the capability to track completion of
these modules, but at the time of this evaluation, there were discrepancies in the data and
indications that the records were not complete or reliable.


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                36
Further agency guidance on orienting new employees is available in the Overseas Staff
Handbook, which lays out the content that should be covered as well as post staff responsibilities
for facilitating an onboarding process. The handbook instructs staff to cover the background of
the agency and the post; provide an overview of policies, standards of conduct, post programs,
partners, Volunteer support, administrative procedures, and medical confidentiality; and review
                                               key safety and security elements such as the
                                               Emergency Action Plan and the office emergency
  The Peace Corps does not have a way to       plan, among other elements. Although the
 ensure that new overseas staff is aware of handbook provides helpful information, the
 and meet important training requirements. agency does not require that this guidance be
                                               followed or ask for verification that the suggested
                                               process has been completed.

Because posts are not consistently using the “Overseas Staff Orientation Guide” and Overseas
Staff Handbook, initial training varies considerably from post to post, and headquarters’ staff
members representing each region acknowledged that the initial training provided at some posts
is not enough. The results of our survey of overseas staff provided further evidence to support
this observation. Overseas staff members made the following comments:

       …in terms of training activities, or even an on the job break-in period, this post offers very little.
       While the people are all high quality, the institutional norm seems to be learn as you go.

       I believe [Peace Corps] has weak onboarding training for new hires, and that lessens their
       productivity.

In addition to the variability in training quality, the lack of a standardized training program for
new staff places the agency at risk of overlooking legally-mandated and other important
trainings. For example, all new overseas staff is required to receive sexual assault policy training
but the agency does not have a way to ensure that staff is aware of this requirement. PCU has
numerous training modules on important topics; however, staff is not consistently made aware of
these. If the agency had a comprehensive training program for new overseas staff, the agency
would not have to rely on already over-burdened senior staff at post to make sure important
training requirements were met. It is in the best interest of staff and the agency to provide
improved training for new overseas staff. Training can help ensure staff understand important
agency policies and processes and have the information they need to be productive.

                We recommend:

                     22. That the associate director for global operations
                         develop and implement a training program that is
                         required for all new overseas staff who do not attend
                         overseas staff training within a determined timeframe.

                     23. That the associate director for global operations
                         monitor completion of the training program for new
                         overseas staff.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                           37
The Peace Corps has not applied federal training requirements to all host country nationals.

The government has enacted numerous laws and regulations to ensure that federal employees
receive the training they need to carry out their governmental functions. The agency provides
most federally mandated trainings to USDHs. However, it has frequently failed to extend those
trainings to HCNs, even though they are held to the same expectations as USDHs and many
HCNs carry out similar work functions. Because the Peace Corps has not provided overseas staff
with all trainings required of federal employees, staff—particularly HCNs—may be unaware of
potentially critical information. A few examples include:

Bloodborne Pathogens. According to 29 C.F.R. § 1910.1030(g), the Occupational Safety and
Health Administration requires all federal agencies to provide employees with occupational
exposure to blood with annual training on how to eliminate or mitigate their exposure to
bloodborne pathogens. Because the regulation is administered by the Department of Labor and
not OPM, it is applicable to PSCs. 32 The overseas staff position most likely to be occasionally
exposed to blood is the PCMO. However, when we checked in with OHS, they were not aware
of the regulation and were therefore not providing the training to PCMOs.

COR Training. As discussed previously, OMB requires all executive agencies to adhere to the
FAC-COR training requirements for all CORs. Currently, overseas CORs are not receiving the
federally required training. Without ensuring all CORs are properly trained, the Peace Corps is at
risk of improper monitoring and administration of contracts.

Ethics Training for HCNs. As mentioned earlier in this report, HCNs do not currently receive
ethics training even though they are held to the U.S. federal government’s Standards of Ethical
Conduct and are allowed to perform inherently governmental activities, such as managing funds
and contracts. Without properly training all staff in the ethical conduct required of them, the
agency is at risk of having its staff break those expectations, wittingly or not.

No FEAR Act. The No FEAR Act mandates that agencies train all employees on their rights
under antidiscrimination and whistleblower protection laws. At present, USDHs receive training
at the headquarters-based new employee orientation, but no training on the act is given to HCNs,
and the topic is not covered at OST.

OIG has received multiple allegations of reprisals, harassment, and unfair terminations, as well
as encountered overseas staff who were reluctant to come forward for fear of retaliation. By not
informing all staff of their rights as whistleblowers, the Peace Corps has put itself at risk by
hindering whistleblowers from coming forward.

Equal Employment Opportunity (EEO). According to the U.S. Equal Employment
Opportunity Commission’s “Instructions to Federal Agencies for EEO MD-715 training,” federal
agencies must do the following:



32
     All PCMOs are PSCs.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                              38
        Provide training to employees and supervisors on the operation of the EEO process, protections
        afforded to employees, related policy statements, and reasonable accommodations procedures…
        [and] provide managers and supervisors with initial and regular refresher training to understand
        their responsibilities under civil right laws, including [alternative dispute resolution], and how
        those responsibilities figure into the success of the agency’s EEO program and overall mission.

In MS 653 “Equal Employment Opportunity and Affirmative Employment,” the Peace Corps has
interpreted EEO laws and required trainings to apply only to employees and applicants within the
United States regardless of citizenship and American employees and applicants outside the
United States. The Peace Corps is within its right to exclude HCNs overseas who are not US
citizens from this training. 33 However, because the Kate Puzey Act now allows HCNs, regardless
of citizenship, to be supervisors, it makes sense to expand the scope of the manual section and
train all supervisors on U.S. EEO laws.

The aforementioned topics are examples and do not form a comprehensive list of all trainings
that may impact HCNs’ job responsibilities. It is important that all overseas staff, including
HCNs, receive the training they need to perform their jobs, especially now that their
responsibilities have increased due to the Kate Puzey Act. The Peace Corps should conduct a
comprehensive assessment of all federally mandated trainings and determine whether HCNs
should receive these trainings, either to meet a federal mandate or to provide information that
would help staff perform their jobs better.

                 We recommend:

                      24. That the chief of staff conduct a comprehensive
                          assessment of the applicability and relevance of
                          federally mandated trainings to overseas staff and
                          develop training requirements and training programs
                          as necessary.


ACCESSING AND MANAGING TRAINING DATA

The agency does not have a robust LMS to efficiently track training for overseas staff.

An LMS is a software application that is used for tracking, reporting, and delivering online
training courses. The government-wide requirement to report training mandated in 5 C.F.R. §
410 has made a robust LMS a practical necessity for most federal agencies. OPM’s manual on
Human Resources Flexibilities and Authorities in the Federal Governments clearly articulates
this necessity:

        Executives and managers must have a comprehensive understanding of the current skills of their
        staffs, as well as the skills they will need in the future, and include that information in their short
        and long-term planning. Agencies need to be able to determine what training programs are needed

33
  MS 002 states, “Any reference in the Manual or procedures to Peace Corps “employees” or “staff” includes
personal services contractors, unless excluded by operation of law or Peace Corps policy.”(emphasis added)



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                             39
       to accomplish their workforce development goals. They need information to substantiate that their
       expenditures on training have met the intended purpose. There is a demand for evidence to ensure
       human capital development decisions support the organization's mission and goals. Such evidence
       can be critical to continued funding. Therefore, it is imperative that comprehensive, accurate, and
       current training information is available to decision-makers.

       …In addition, Federal Government initiatives require agencies to identify long-term strategic
       goals and describe how the agency intends to achieve those goals through its activities and through
       its human capital, financial, information, and other resources. This illustrates the importance of
       effective information management systems which not only maintain training data, but which
       incorporate data from multiple systems to provide a comprehensive analysis of the agency's
       performance.

USAID and the Foreign Agriculture Service reported having a centralized LMS accessible to all
staff, including overseas non-USDHs. MCC reported that while it does not have a formal LMS, it
uses a SharePoint system that enables them to track registration and completion, and develop
individualized training transcripts.

The Peace Corps’ LMS, PCU, currently has limited functionality. It does not have an integrated
personnel system; cannot produce reports; and, until recently, participation tracking had to be
done externally. Furthermore, for a period of time, PCU was not compatible with Internet
Explorer, the primary browser used for the Peace Corps’ Intranet. The lack of a robust LMS has
led to various issues related to staff training, such as identifying training requirements, tracking
participation, providing oversight, and delivering training reminders.

Training Requirements. Currently, the Peace Corps is lacking the fundamental ability to easily
identify everyone who needs to take certain trainings based on their position or other elements of
their job that necessitate training. This inability is
due to the fact that PCU is not linked to the
agency’s personnel data. As a result, training           There is no comprehensive list of all
managers had difficulty obtaining a list of all                     overseas staff.
overseas staff who needed to take the training. One
example of this was the sexual assault policy
training. Because staff could not obtain an accurate,
up-to-date list of everyone who needed to take the training, they were unable to determine
whether all overseas staff had taken it as required by law. To obtain the needed data, staff would
have to work with at least two offices, HR and OCFO, to obtain personnel data for overseas staff
that is captured at a point in time. There is no mechanism to recognize changes in staff, such as
departures, onboarding, or changes in position. Therefore it is very difficult for the people who
are managing training to maintain an accurate list of the staff who need to take their training and
follow-up with people who have not met the requirement.

Training Participation. The agency has also struggled to have an easy way for training
managers to know whether all staff has completed the necessary trainings. Once again, the sexual
assault policy training managers faced this problem. Relying on staff to enter their own names
made it difficult to determine exactly who had completed the training because some people
misspelled their name, entered a nickname, or confused the order of first and last names.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                        40
Another example is the annual refresher training for classified clearance holders. Staff in SS uses
a very time-consuming process to track the completion of this mandatory training requirement.
Each year, SS prepares a list of clearance holders who need to take the refresher training and
sends them periodic reminder emails. There is currently not a way to monitor the system and
verify who has taken the training, so participants must email SS when they have completed the
training. Once the email is received, the clearance holder’s name is crossed off a hard copy list.
Improved LMS functionality could make tracking much more efficient.

Supervisor Oversight. A third problem caused by the lack of a robust LMS is that supervisors
cannot oversee their staff’s training, which can make it difficult to enforce training requirements.
An example of this problem is the ethics training for confidential filers. Each year, OGC makes a
considerable effort to ensure that every confidential filer completes the required training. This
process includes sending multiple reminder emails and, occasionally, informing a filer’s
supervisor of noncompliance. However, despite all the effort, some confidential filers do not take
the training. In our review of training records for confidential filers from 2008 to 2013 we found
that on average, between 80 and 90 percent of filers completed the training (see Table 1 in
Section A).

The completion rates can be partially attributed to the lack of systems that would allow
supervisors to access their staff’s training records and oversee training completion. There have
never been any actionable consequences for employees who fail to comply with the training
requirement. Currently, OGC must look up each non-compliant employee’s supervisor and then
inform him or her directly about who has failed to take the training. OGC must rely on
supervisors to do the necessary follow-up. OGC estimated that each year, staff spends upwards
of 100 hours developing, delivering, and ensuring full completion of the online training. This
time could be reduced if supervisors and training managers had easy access to training records
and could follow-up with staff when needed.

Training Reminders. A final problem that stems from the lack of robust LMS is that for some
trainings the agency must rely on staff to remember when to take a training. One example of this
is purchase card refresher training. As discussed previously, without a system to track who needs
to take a training, until 2014 the Peace Corps was relying on purchase card holders to
independently remember that they needed to take the refresher training every three years and
submit the certificate of completion to OACM.

Staff who manage PCU have been working with OCIO to load personnel information into PCU,
which should alleviate some of challenges. However, until the agency fully assesses what
functions it needs from an LMS, what functions PCU is capable of, and what functions other
LMS’s offer, the agency will continue to struggle to effectively track staff training, particularly
those located overseas. We also believe that the lack of a personnel database that includes all
staff, USDHs and HCNs, compounds the LMS challenges; however, that is not being directly
addressed in this report’s recommendations because it was outside the scope of this project.
Nevertheless, the agency should assess whether it has the information infrastructure in place to
make its LMS as useful as possible.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                             41
              We recommend:

                 25. That the chief of staff implement a learning
                     management system that enables overseas staff,
                     supervisors, and trainers to track and monitor training
                     completion.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff          42
                           LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the chief of staff develop and implement a process to ensure that all overseas staff,
including newly hired staff, complete the sexual assault policy training.

2. That the chief of staff monitor the victim sensitivity training and ensure staff takes it, as
needed.

3. That the associate director for global operations periodically review and redistribute the
standardized training on the confidential handling of Volunteer allegations and create a process
to ensure it is provided to all overseas staff.

4. That the director for human resource management maintain a complete list of supervisors and
provide initial and refresher supervisor training to all staff in a supervisory role, regardless of
employment classification.

5. That the director for human resource management develop and implement a method to track
supervisor training for overseas staff and hold staff accountable for completion of the training.

6. That the associate director for safety and security ensure that classified information refresher
training is conducted every year as required.

7. That the associate director for safety and security verify the accuracy of the clearance holder
list.

8. That the associate director for global operations develop and implement an approach that
ensures that overseas American staff has the language skills they need for their jobs.

9. That the general counsel require all overseas staff to receive ethics training upon being hired.

10. That the chief acquisition officer hire the staff necessary to support the training needs of
overseas contracting officers.

11. That the chief acquisition officer develop continuous learning requirements for overseas
contracting officers.

12. That the chief acquisition officer require contracting officer representatives to be certified in
accordance with the Federal Acquisition Certification-Contracting Officer Representatives
requirements.

13. That the chief acquisition officer maintain a record of overseas contracting officer
representatives, provide oversight to ensure Federal Acquisition Certification-Contracting
Officer Representatives program compliance, and manage and track training participation.


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                43
14. That the chief acquisition officer establish and implement a formal verification and follow-up
process to ensure purchase cardholders and approving officials are receiving required training.

15. That the associate director for management update agency policy for both individually-billed
and centrally-billed travel cards to reflect federal travel card training regulations.

16. That the associate director for management develop, document, and implement a process to
ensure that travel card holders and approving officials receive the required training.

17. That the associate director for management develop and implement a training for centrally-
billed travel card holders.

18. That the chief information officer develop and implement a method to track information
security training completion for overseas staff and enforce consequences for staff who do not
meet the training requirement.

19. That the chief of staff designate responsibility for the oversight and authority of the Peace
Corps’ staff training program.

20. That the chief of staff ensure that there are standard operating procedures that document how
required trainings are delivered and monitored.

21. That the chief of staff develop and implement a process to conduct staff training needs
assessments on an ongoing basis.

22. That the associate director for global operations develop and implement a training program
that is required for all new overseas staff who do not attend overseas staff training within a
determined timeframe.

23. That the associate director for global operations monitor completion of the training program
for new overseas staff.

24. That the chief of staff conduct a comprehensive assessment of the applicability and relevance
of federally mandated trainings to overseas staff and develop training requirements and training
programs as necessary.

25. That the chief of staff implement a learning management system that enables overseas staff,
supervisors, and trainers to track and monitor training completion.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                               44
          APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, the Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The purpose of OIG is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. The Inspector General is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The Evaluation Unit provides senior management with independent evaluations of all
management and operations of the Peace Corps, including overseas posts and domestic offices.
OIG evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of the Peace Corps’ overseas
staff training program on November 1, 2013. The purpose of the evaluation was to assess the
agency’s provision and management of training for all overseas staff, including USDHs, PSCs,
and FSNs.

The team conducted the fieldwork and analysis for this evaluation from December 2013 to May
2013. This research included interviews with headquarters staff, reviewing training records,
conducting a survey of overseas staff, and speaking to people from other federal agencies who
have staff working overseas. The scope of our analysis was limited to trainings that occurred
between 2008 and 2013. 34

IDENTIFICATION AND PRIORITIZATION OF TRAININGS
At the beginning of the evaluation we compiled a list of mandatory trainings by reviewing the
Peace Corps Manual, researching federal laws, and interviewing headquarters staff who manage
and provide training. We also consulted an inventory of trainings developed by the Learning
Council. After compiling a list of required trainings, we worked with OIG senior staff to
determine the depth of analysis for each training. The following trainings were selected for
analysis:

      •    Bloodborne pathogens
      •    Cashier, subcashier, and cashier supervisor
      •    Classified material
      •    CME and MOST
      •    Confidential handling of Volunteer allegations
      •    CO and COR
      •    Equal opportunity employment
      •    Ethics
      •    Information security
      •    OST

34
     OHS provided us with training records from 2009 through 2013.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                          45
   •   Purchase card
   •   Sexual assault policy
   •   Supervisory training
   •   Travel card training

STAFF LISTS
In order to assess training completeness, we often had to compare training records to personnel
records. To obtain a list of all overseas staff, OIG worked with HRM and OCFO. There were
three primary lists that were used:

   •   A list of all overseas USDHs as of February 9, 2014, provided by HRM
   •   A list of all overseas USDH supervisors as of January 28, 2014, provided by HRM
   •   A list of all overseas FSNs and PSCs as of January 29, 2014, provided by OCFO

We only obtained personnel data for current staff, not historical personnel data, which means that
staff who was no longer employed as of January or February 2014 were excluded from our
analysis. In addition, for trainings that only occurred at the beginning of one’s employment, like
ethics training for non-confidential filers, we further limited our scope of analysis to staff hired
in 2008 or later.

OIG SURVEY OF OVERSEAS STAFF
OIG issued a survey to gather feedback from overseas staff on the training they receive. This was
necessary because while the agency’s annual employee viewpoint survey asks about training, it
is not administered to HCNs. The survey was sent to all overseas staff using post- and position-
specific email distribution lists. The survey was administered via Survey Monkey and was open
to respondents for 18 days from February 7-24, 2014. We estimate that 2,200 people received the
survey. We received 700 responses, for a 32 percent response rate. Most of the survey questions
were closed-ended questions, although there were also comment boxes for people to provide
additional input. OIG analyzed the responses to all questions, including open-ended comments.

OTHER FEDERAL AGENCIES COMPARISON
OIG selected four federal agencies to interview about their training of overseas staff: USAID,
MCC, United States Department of Agriculture Foreign Agriculture Service, and DOS. The
selection process was based on the agencies’ number of USDH overseas staff and number of
foreign national staff.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                             46
                  APPENDIX B: INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 45 staff from Peace Corps
headquarters in Washington, D.C. and 11 representatives from other federal government
agencies that have employees working overseas.

                     Table 4: Peace Corps Headquarters Staff Interviews
                    Position                             Office
        Chief of Operations                Africa Operations
        Chief of Programming and           Europe, Mediterranean, and Asia Operations
        Training
        Policy and Program Analyst         General Counsel
        Associate General Counsel (2)      General Counsel
        Attorney Advisor                   General Counsel
        Acting Regional Director           Inter-America and the Pacific Operations
        Chief of Programming and           Inter-America and the Pacific Operations
        Training
        Chief of Procurement Policy        Office of Acquisitions and Contracts Management
        Overseas Support Specialist,       Office of Acquisitions and Contracts Management
        Africa
        Chief of Administrative Services   Office   of Administrative Services
        Budget Analyst (Training)          Office   of the Chief Financial Officer
        Contract Specialist                Office   of the Chief Financial Officer
        Procurement Technician             Office   of the Chief Financial Officer
        Training Manager                   Office   of the Chief Financial Officer
        Customer Capacity Building         Office   of the Chief Information Officer
        Manager
        Director, Customer Support         Office of the Chief Information Officer
        Services
        IT Specialist                      Office of the Chief Information Officer
        EEO and Diversity Training         Office of Civil Rights and Diversity
        Specialist
        Chief of Programming and           Office of Global Health and HIV
        Training
        Director of the Office of Global   Office of Global Health and HIV
        Health ad HIV
        Senior Advisor (2)                 Office   of Global Operations
        Quality Improvement Manager        Office   of Health Services
        Supervisory Education Specialist   Office   of Health Services
        Director, Human Resource           Office   of Human Resource Management
        Management
        Supervisory HR Specialist          Office of Human Resource Management
        (Employee Development)
        Supervisory HR Specialist          Office of Human Resource Management
        (Employee Relations)
        Deputy Associate Director,         Office of Management
        Management
        Director, Office of Victim         Office of Victim Advocacy
        Advocacy


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                        47
       Chief of Overseas Professional          Overseas Programming & Training Support
       Development
       Chief of Knowledge                      Overseas Programming & Training Support
       Management and Exchange
       Chief of Training Unit                  Overseas Programming & Training Support
       Lead Training Specialist                Overseas Programming & Training Support
       Literacy Specialist/Acting              Overseas Programming & Training Support
       Programming Chief
       Professional Development                Overseas Programming & Training Support
       Specialist (2)
       Chief of Operations                     Peace Corps Response
       Programming Specialist                  Peace Corps Response
       Administrative Officer                  Safety and Security
       Acting Associate Director and           Safety and Security
       Chief of Overseas Operations


       Chief of Informational and              Safety and Security
       Personnel Security
       Information Security Specialist         Safety and Security
       Monitoring and Evaluation               Safety and Security
       Specialist (Safety and Security)
       Training Administrator                  Safety and Security
       Data as of April 2014

                    Table 5: Other Federal Government Agency Interviews
                     Position                          Organization
       Senior Program Officer                     Millennium Challenge Corporation
       Senior Human Capital Specialist            Millennium Challenge Corporation
       Assistant Director, Policy, Planning,      United States Agency for International
       and Analysis Division                      Development, Office of Inspector General
       HR Specialist                              United States Agency for International
                                                  Development, Washington Learning Center
        Senior Career Counselor                   United States Agency for International
                                                  Development, Washington Learning Center
        Career Development Program                United States Agency for International
                                                  Development, Washington Learning Center
       Senior Learning Resources                  United States Agency for International
       Specialist                                 Development, Washington Learning Center
       Career Development Internal                United States Agency for International
       Consultant                                 Development, Washington Learning Center
       Alternate Designated Agency Ethics         United States Agency for International
       Official                                   Development
       Area Director for North Asia               United States Department of Agriculture,
                                                  Foreign Agriculture Service
        Director, Transition Center               United States Department of State, Foreign
                                                  Service Institute
       Data as of March 2014




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                          48
                     APPENDIX C: LIST OF ACRONYMS

 CD                     Country Director
 CLO                    Chief Learning Officer
 CME                    Continuing Medical Education
 CO                     Contracting Officer
 COR                    Contracting Officer Representative
 CVO                    Cashier Verification Officer
 DMO                    Director of Management and Operations
 DOD                    Department of Defense
 DOS                    Department of State
 DPT                    Director of Programming and Training
 EEO                    Equal Employment Opportunity
 EMA                    Europe, Mediterranean and Asia Operations
 FAC-C                  Federal Acquisition Certification in Contracting
 FAC-COR                Federal Acquisition Certification for Contracting Officer's
                        Representatives
 FSN                    Foreign Service National
 FY                     Fiscal Year
 HCN                    Host Country National
 HRM                    Office of Human Resource Management
 IAP                    Inter-America and the Pacific Operations
 IMA                    Internal Management Assessment
 IT                     Information Technology
 LMS                    Learning Management System
 MCC                    Millennium Challenge Corporation
 MOST                   Medical Overseas Staff Training
 MS                     Manual Section
 OACM                   Office of Acquisitions and Contracts Management
 OMB                    Office of Management and Budget
 OCIO                   Office of the Chief Information Officer
 OCFO                   Office of the Chief Financial Officer
 OGC                    Office of General Counsel
 OGO                    Office of Global Operations
 OHS                    Office of Health Services
 OIG                    Office of Inspector General
 OPATS                  Overseas Programming and Training Support
 OPM                    Office of Personnel Management
 OST                    Overseas Staff Training
 PCMO                   Peace Corps Medical Officer
 PCSSO                  Peace Corps Safety and Security Officer
 PCU                    Peace Corps University
 PSC                    Personal Service Contractor
 PCR                    Peace Corps Response
 RSO                    Regional Security Officer
 SARL                   Sexual Assault Response Liaison



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                 49
 SS                     Office of Safety and Security
 SSM                    Safety and Security Manager
 US                     United States
 USAID                  United States Agency for International Development
 USDH                   United States Direct Hire




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff        50
               APPENDIX D: OTHER MANDATED TRAININGS
     Training             Required By           Required For                    Status
                                                                   OIG is the only office in the
                                                                   agency providing training to its
 Drug Free
                     EO 12564                 All supervisors      supervisors on the management
 Workplace
                                                                   of the Drug-Free Workplace
                                                                   Program
                                                                   Trainings provided during OST,
 Financial
                                                                   at post, and at the DMO
 Management          MS 709                   All users
                                                                   conference. There are also online
 System
                                                                   training resources.
 Human                                        Staff with           Reviewed during contracting
                     EO 13627
 Trafficking                                  contracting duties   training at OST
                     Notification and
                                                                   Information available on
                     Federal Employee
 No FEAR Act                                  U.S. citizens        intranet; agency does not provide
                     Antidiscrimination and
                                                                   training
                     Retaliation Act
 Occupational                                                      Unable to verify; managed by
                     29 C.F.R. § 1960.59(a)   All staff
 Safety and Health                                                 posts
                     Plain Writing Act of
                     2010 and Office of
 Plain Writing Act   Management and           All new staff        Agency does not provide training
                     Budget (OMB) M-11-
                     15
                                                                   Covered partially through
                                                                   several trainings (MOST, OST,
 Privacy Act and
                                                                   online “Overseas Staff
 Personally
                     OMB M-07-16              All staff            Orientation Guide”, Freedom of
 Identifiable
                                                                   Information Act/Office of
 Information
                                                                   Management Intranet page); no
                                                                   verification or tracking
 United States
                     Pub. L 108-447           All employees        Agency does not provide training
 Constitution




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                  51
  APPENDIX E: FEDERAL SUPERVISORY TRAINING FRAMEWORK




Source: OPM’s “Federal Supervisory Training Fact Sheet”




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff   52
                   APPENDIX F: AGENCY’S RESPONSE TO THE
                           PRELIMINARY REPORT




Memorandum

To:             Kathy Buller, Inspector General

Through:        Daljit K. Bains, Chief Compliance Officer

From:           Laura Chambers, Chief of Staff

Date:           September 26, 2014

CC:             Carrie Hessler-Radelet, Director
                Joaquin Ferrao, Deputy Inspector General
                Joseph Hepp, Chief Financial Officer
                Carlos Torres, AD Global Operations
                Dorine Andrews, Chief Information Officer
                Bill Rubin, General Counsel
                Daryl Sink, AD Safety and Security
                Linda Brainard, Chief Acquisition Officer
                Garry Stanberry, Deputy AD Management
                Karen Bickle, Director, Human Resource Management
                Sonia Stines-Derenoncourt, Director OPATS

Subject:        Agency Response to the OIG’s Preliminary Report on the Program Evaluation of the
                Peace Corps’ Training of Overseas Staff (Project No. 14-Eval-01)



Enclosed please find the agency’s response to the recommendations made by the Office of the Inspector General
for the Program Evaluation of the Peace Corps’ Training of Overseas Staff as outlined in the Preliminary Report
sent to the agency on August 7, 2014.

The agency is committed to conducting an overall training program review as outlined in the response to the
recommendations and is appreciate of the efforts and collaboration extended by the OIG, specifically of the
evaluation unit in their in response to this report.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                         53
1. That the associate director for safety and security develop and implement a process to ensure that all
overseas staff, including newly hired staff, complete the sexual assault policy training.

        Concur: The agency concurs that the establishing a process to ensure that all overseas staff are trained in
        the sexual assault policy in accordance with their job responsibilities is needed. The determination of how
        this will be done and which office will track this will be determined as a part of the overall training
        assessment that is referenced in the response to recommendation 20.

        This recommendation should be re-assigned to the Chief of Staff to make this determination rather than
        to the Office of Safety and Security who is responsible for developing this training, but not for tracking
        and verification.

        Completion Date:
        December 2015

2. That the associate director for safety and security monitor the victim sensitivity training and ensure
staff takes it, as needed.

        Concur: The agency concurs that establishing a process for monitoring and tracking the victim sensitivity
        training is required and will be an outcome of the overall training assessment that will be conducted by
        the agency. This recommendation should re-assigned to the Chief of Staff to ensure that this training is
        being monitored and not to the Office of Safety and Security who currently does not have the ability to
        monitor this.

        Completion Date:
        December 2015

3. That the associate director for global operations develop and implement a standardized training on
the confidential handling of Volunteer allegations and create a process to ensure it is provided to all
overseas staff.

        Concur: The Office of Global Operations developed and distributed a standardized training on the
        confidential handling of Volunteer allegations in 2011 that all posts delivered to host country staff from
        February to May 2011. The Office of Global Operations will work with appropriate offices to update the
        training to reflect recent policy changes and include it in a new self-directed module to be completed Q4
        2015. In addition, staff that have access to confidential volunteer reports or information will continue to
        receive training during OST to protect against inappropriate disclosures.

        An interim process to ensure all overseas staff are provided with this training will be established by
        March 2015. The long term solution for all monitoring, tracking and verifying will be established by the
        agency as an outcome of the overall training assessment that is referenced in recommendation 20.

        Completion Date:
        March 2015 for in interim process
        Long term solution – December 2015

4 .That the director for human resource management maintain a complete list of supervisors and
provide initial and refresher supervisor training to all staff in a supervisory role, regardless of
employment classification.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            54
        Concur: Since the new Director of HRM arrived, in November 2012, supervisor training has been
        provided to and tracked for all domestic and overseas US Direct Hire supervisors and all supervisors in
        Headquarters and Regional Recruitment Offices. This training took place from February through June
        2014. This was the initial roll out of this training that was created in 2013, as this training had not been
        provided to Peace Corps supervisors in almost five years. This training is now provided quarterly to all
        newly hired, or newly promoted, domestic and overseas US Direct Hire supervisors.

        HR, in coordination with the Office of Global Operations and Regional Directors, is designing the
        implementation plan for the Peace Corps Supervisory Training to be provided to overseas supervisors to
        begin, upon approval, during the first two quarters of Fiscal Year 2015. HR is also coordinating with the
        Office of the Chief Financial Officer to obtain a list of PSCs in supervisory roles, as this information is
        not maintained by HR. PSCs will be included in the rollout of this supervisory training class for overseas
        supervisors. Upon completion of this training by all overseas US Direct Hire and PSC supervisors, this
        training will be provided quarterly to all newly hired, or newly promoted, supervisors.

        Regarding Peace Corps Supervisory Performance Appraisal Training, the HR Employee and Labor
        Relations Management/Performance Appraisal Division has trained all domestic and overseas US. Direct
        Hire supervisors, effective August 2014. This was the initial roll out of this training that was created and
        implemented in June of 2013. This training is now provided quarterly to all newly hired, or newly
        promoted, domestic and overseas US Direct Hire supervisors. As above, PSCs will be included in the
        rollout of this supervisory training class for overseas supervisors. Upon completion of this training by all
        overseas US Direct Hire and PSC supervisors, this training will be provided quarterly to all newly hired,
        or newly promoted, supervisors.

        Completion Date:
        Completed June 2014

 5. That the director for human resource management develop and implement a method to track
supervisor training for overseas staff and hold staff accountable for completion of the training.

        Concur: The Human Resource Management Training Division has revised the agency training policy,
        MS 664 In Service Employee Training, to include processes for tracking, training, and holding staff
        accountable for the completion of training. As the office responsible for this policy, HR will provide this
        policy to management for review and approval in the first quarter of Fiscal Year 2015. Upon a final
        agency-wide decision for the automated Learning Management System(s) (LMS) that will be used by
        Peace Corps to track training, HR will ensure the process for tracking with this system will be used and
        the process documented in the guiding policy.

        Completion Date:
        December 2015

6. The associate director for safety and security develop and implement a method to verify that all
overseas clearance holders receive the initial training before accessing classified information.

Do not Concur

In a list of 49 people identified in the evaluation as staff who had not attended a regularly scheduled OST, 47 of
the 49 received the initial briefing and have a SF312 on file at PC HQ. The other two were hired into their USDH
positions from post, therefore, the briefing would have been the responsibility of the RSO prior to providing
them with any classified.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                              55
The office of safety and security currently verifies that all overseas clearance holders receive the initial training
before accessing classified information through the following: Staff who come through PC HQ for OST or for
off-cycle training receive the initial briefing and sign the SF312, the Classified Information Non-Disclosure Form,
at that time. That person’s record in the Personnel Security database is updated with the date that the SF312 is
signed, and then the SF312 is filed. For employees sent to post without first attending training at HQ, they are
notified, their supervisor is notified, HR is notified, and the Head of the office is notified, that they are required
to be briefed prior to being given access to classified information.

As of January 2014, employees taking the initial briefing also sign in prior to the briefing and an Excel file of all
initial briefings conducted is being maintained. As of August 2014, the office of safety and security is requesting,
and has received confirmation of the briefing and signed SF312s for staff members who receive the initial briefing
from the RSO.

Given the additional documentation provided by OSS, the agency is requesting that this recommendation be
eliminated.

7. That the associate director for safety and security ensure that classified information refresher training
is conducted every year as required.

        Concur: The annual security refresher training schedule is back on track for calendar year 2014. As of
        7/15/2014, all clearance holders, hired before 6/1/2014, have been sent notifications to complete the
        training. [NOTE: clearance holders hired after 6/1/2014 and employees granted clearances who were
        briefed after 6/1/2014 were not sent a refresher notification, since they would have recently undergone a
        security briefing when they were hired.] As of September 9, 2014, 88 % of clearance holders have
        completed the refresher training.

        Date completed:

        On 7/15/2014 SS began notifying current clearance holders of their refresher briefing requirement. SS
        anticipates that all clearance holders will have met this requirement as of 9/30/2014.

8. That the associate director for safety and security verify the accuracy of the clearance holder list.

        Concur: The list of clearance holders is currently reviewed on a monthly basis, as every 30 days each
        federal agency is required to upload their employee’s security clearance information to CVS (the
        Clearance Verification System). On an annual basis, prior to the Annual Refresher Briefing, the list
        generated by the Access database, is reviewed against all the clearance holding positions to verify that all
        the clearance holders are included

        Implementation Date:
        The review of the list of clearance holders generated by the Access database against the list of clearance
        holding positions started in June 2014 and will occur every year in approximately June or July. The
        monthly review started in approximately May 2014 and will continue every month. The Office of Safety
        and Security considers this an interim solution until a new personnel security database can be acquired.

9. That the associate director for global operations develop and implement an approach that ensures that
overseas American staff has the language skills they need for their jobs.

        Concur: The Office of Global Operations will work with the Office of Human Resource’s Overseas
        Recruitment, Support and Selection (ORSS) to develop job announcements and strategies to recruit
        overseas USDH candidates with specific language skills for posts where English is not an official or
        widely-spoken language. The Office of Global Operations will work with the Office of Human


Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                              56
        Resources to explore the feasibility and costs of providing language training for USDH staff when the
        agency is unable to recruit candidates that have sufficient language skills they need for their jobs.

        Completion Date:
        March 2015

10. That the General Counsel require all overseas staff to receive ethics training upon being hired.

        Concur: The General Counsel’s Office agrees with this recommendation that all overseas PSC staff
        should receive ethics training upon being hired.

        Though the Office of the General Counsel does not consider PSCs to be employees for the purposes of
        the Ethics in Government Act, in 2003, the Peace Corps incorporated a clause in the PSC contracts
        requiring them to adhere to the U.S. federal government employees’ Standards of Ethical Conduct
        (Standards). It was our expectation when this clause was incorporated into the PSC contracts in 2003
        that the PSCs would be given the opportunity to review the Standards and would agree to adhere to the
        Standards before signing their contracts. It is disappointing to discover that “only 69 percent of overseas
        HCNs surveyed reported that they were adequately informed of the Standards of Conduct” given when
        they signed their contracts they agreed to adhere to those Standards. To correct this apparent gap, we
        agree beginning in January 2015 that our office will begin tracking this group of employees and ensuring
        all new PSCs receive the initial ethics training which all new U.S. based and USDH employees to the
        agency are required to be given within their first 90 days of employment. The training given to the PSCs
        will, at a minimum, be consistent with the regulation at 5 C.F.R. § 2638.703.

        To that end, this office will coordinate over the next few months with the Office of Global Operations
        and OACM to determine the best practical delivery method for this office to meet the requirements of 5
        C.F.R. § 2638.703 starting in January 2015.

        Completion Date:
        January 2015


11. The chief acquisition officer hire the staff necessary to support the training needs of overseas
contracting officers.

        Concur: Although the Preliminary Report indicated that OACM had reduced its staff to just three
        people dedicated to overseas staff support, in fact there was no reduction in the staff support. There was
        a labor lapse wherein the branch chief position (Supervisory Contract Specialist FP-1102-2) for the
        OACM Overseas Operations Branch went unfilled during the realignment of OACM within the Office
        of the Chief Financial Officer. A recruitment action for the Overseas Operations Branch Chief was
        initiated at the end of Q3 of FY14 and an offer to the selected candidate is in process. It is expected that
        the Branch Chief position will be filled by the beginning of Q1 FY15. This level of staffing is considered
        sufficient to support the training needs of overseas contracting officers. It is expected that the
        recruitment and retention of qualified 1102s will be an ongoing challenge for the Peace Corps due to the
        government wide scarcity of 1102s, the stringent education and training requirements of FAC-C, and the
        Peace Corps’ five year rule.

        Completion Date:
        October 30, 2014




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            57
12. The chief acquisition officer develop continuous learning requirements for overseas contracting
officers.

        Concur: The continuous learning requirements for overseas contracting officers are being reviewed by
        OACM and a determination is expected by the end of the calendar year.

        Ongoing training is made available to overseas contracting officers during annual Director of
        Management & Operations (DMO) Conferences. Training certificates issued as a result of training at
        DMO conferences will identify the number of hours of training received and the corresponding number
        of Continuous Learning Points (CLPs). OACM will maintain a record of the DMO training provided as
        well as any other contract related training taken by the overseas contracting officers.

        Completion Date:
        December 2014

13. The chief acquisition officer require contracting officer representatives to be certified in accordance
with the Federal Acquisition Certification-Contracting Officer Representatives requirements.

        Non-concur: There currently is not a need for CORs at post due to the small dollar value and non-
        complex nature of the acquisitions being awarded which are typically fixed price or fixed rate product or
        service orders valued at less than $25k . For these types of requirements Contracting Officers are to
        utilize points of contact to support the administration of contract actions awarded. Should very large or
        complex projects be initiated at post which would require complex contract administration, the
        requirements of FAC-COR would be implemented.

14. The chief acquisition officer maintain a record of overseas contracting officer representatives,
provide oversight to ensure Federal Acquisition Certification-Contracting Officer Representatives
program compliance, and manage and track training participation.

        Non-Concur: Should the need for full delegation of contract administration to CORs at post become
        necessary, the existing OACM FAC-COR program oversight and tracking would be applicable.

15. That the chief acquisition officer establish and implement a formal verification and follow-up process
to ensure purchase cardholders and approving officials are receiving required training.

        Concur: A formal verification and follow up process to ensure purchase cardholders and approving
        officials receive required training is under development.

        Completion Date:
        March 2015

16. That the associate director for management update agency policy for both individually-billed and
centrally-billed travel cards to reflect federal travel card training regulations.

        Concur: The revised policy, MS 801, Travel Card Program, is on the agenda for review at the Senior Policy
        Committee meeting on Monday, September 22, 2014.

        Completion Date: It is expected that MS 801 will be in the manual within 60 days of approval by Senior
        Policy Committee and the Director.

        Documents to be submitted: MS 801 will be submitted once approved by the Director and published.



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                           58
17. That the associate director for management develop, document, and implement a process to ensure
that travel card holders and approving officials receive the required training.

        Concur: The process requested in this recommendation currently is found in MS 706, Individually Billed
        Travel Card Program. It will be moved to MS 801, Travel Card Program, once approved by the
        Director. The Transportation Office currently tracks all cardholder and approver training for our
        records.

        Completion Date: MS 801 is expected to be in the manual within 60 days of approval by Senior Policy
        Committee and the Director.

        Documents to be submitted: It is expected that MS 801 will be in the manual within 60 days of
        approval by Senior Policy Committee and the Director.

18. That the associate director for management develop and implement a training for centrally-billed
travel card holders.
         Concur: The Transportation staff is developing on-line training to train centrally-billed travel card
         holders which should be available in 60 days. We currently use the required Office of Management and
         Budget training.
         Completion Date:
         December 31, 2014

19. That the chief information officer (1) develop and implement a method to track information security
training completion for overseas staff and (2) enforce consequences for staff who do not meet the annual
training requirement.

    Concur: Part 1 Implementation: The OCIO Security division with the Customer Support Services
    International Support & Services Unit will put in place a process and procedures by which:
        1. All USDH, PSC or FSN new hires and those being rehired after a period of more than 12 months
             complete the initial security awareness training.
        2.   Documentation of completion of the training are delivered electronically to the OCIO Security team
             by the post IT Specialist within 24 hours of training completion. Some staff are employed on a short
             term services contract basis for weeks or months at a time, leave and then return when their services
             are once again needed. If they return in less than 12 months their initial training certificate is still
             valid.
        3.   Annually, the HQ Security team will review all received completion documentation against a list of
             post new hires and returning hires provided by the post DMO to ensure completion of security
             training by overseas staff.
    Part 1 Completion Date:
            Step 1: December 2014
            Step 2: December 2014
            Step 3: September 2015

    Part 2: Implementation: The OCIO will enforce consequences for not completing the FY2014 Security
    Awareness Training beginning Monday, September 22, 2014 and each following year. A standard operating
    procedure (SOP) will be written and stored electronically for annual use.

    Documents to be submitted:
    Email sent to all staff on September 9, 2014



Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                             59
20. That the chief of staff designate responsibility for the oversight and authority of the Peace Corps’
staff training program.

        Concur: The Peace Corps plans to approach the need for a comprehensive agency-wide staff training
        program in a holistic manner. To achieve this, the Chief of Staff has directed the creation of a multi-
        office Training Review group to benchmark, and propose, the creation of an agency-wide training
        program. This Training Review Group will benchmark other Federal Government foreign service
        agencies’ training structures; benchmark private industry, such as Red Cross, AmeriCorps, United Way
        training structures; and propose an organizational structure.

        Completion Date:
        December 2015

21. That the chief of staff ensure that there are standard operating procedures that document how
required trainings are delivered and monitored.

        Concur: The outcome of the assessment referenced in the response to recommendation 20 will indicate
        which SOPs will need to be developed.

        Completion Date:
        December 2015

22. That the chief of staff develop and implement a process to conduct staff training needs assessments
on an ongoing basis.

        Concur: The Training Review group that is being established to review the agency wide training program
        will address the incorporation of a training needs assessment as a part of the overall PC training program
        design.

        Completion Date:
        December 2015

23. That the associate director for global operations develop and implement a training program that is
required for all new overseas staff who do not attend overseas staff training within a determined
timeframe.

        Concur: The Office of Global Operations will work with Overseas Programming and Training Support
        (OPATS) to update and revise the Overseas Staff Orientation (OSO), an interactive, online training, that
        was developed as a standard approach to training all incoming overseas staff. By Q3, FY15, each new
        staff member will be required to review the OSO guide as part of the on-boarding process as the
        introduction to Peace Corps and its critical systems, policies and procedures. The OSO guide is currently
        under revision and is scheduled for completion in Q2 FY15. New overseas staff will complete the OSO
        guide within 90 days of their EOD date.

        Completion Date:
        December 2015

24. That the associate director for global operations monitor completion of the training program for new
overseas staff.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                             60
       Concur: Office of Global Operations will determine the best way to use the Learning Management
       System to monitor successful completion of training by new, overseas staff.

       Completion Date:
       December 2015

25. That the chief of staff conduct a comprehensive assessment of the applicability and relevance of
federally mandated trainings to overseas staff and develop training requirements and training programs
as necessary.

       Concur: Prior to the completion of the agency-wide training assessment, the Office of Human Resource
       Management will coordinate with each responsible office, OPATS, the General Counsel, and the Peace
       Corps executive leadership to assess and coordinate all Federal Government mandated training
       requirements and to develop an Annual Training Calendar, of mandatory training classes, for all
       employees.

       Completion Date:
       January 2015 for completion of an agency-wide Annual Training Calendar of Federal Government
       mandatory classes and announcement of the process for all Federal Government mandated training
       classes.

26. That the chief of staff implement a learning management system that enables overseas staff,
supervisors, and trainers to track and monitor training completion

       Concur: The Chief of Staff will direct OPATS and HR to establish this system.

       In April 2014, HR and OPATS established a cross-functional LMS Project Working Group, with
       representation from HR, OPATS, S&S, and OCIO. This team was established to perform a needs
       assessment for a Learning Management System (LMS) to support the ongoing training and professional
       development of Peace Corps staff. The purpose of this team is to: consider LMS needs of all Peace
       Corps staff, perform a Gap Analysis with the current in-house systems in place, and recommend a
       solution for the future state of agency learning management.

       Simultaneously, enhancements are being made to the Peace Corps University from OPATS.

       As a part of the overall assessment, it will need to be determined if PC University or another LMS will
       best meet the needs of the agency for its needs of delivering, monitoring, verifying and tracking all
       training of staff.

       Completion Date:
       December 2015




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                                            61
                          APPENDIX G: OIG COMMENTS
Management concurred with 23 recommendations and did not concur with two recommendations.
We eliminated one recommendation in the final report, recommendation six, based on additional
data provided by the agency after the release of the preliminary report. All subsequent
recommendation numbers were changed accordingly. We wish to emphasize that the agency’s
inability to provide complete training records upon request underscores the challenges associated
with tracking staff training and the clear need for a robust learning management system. The need
for an LMS is an important finding in our report and an area for prioritization in the agency’s actions
to address our recommendations.

All 25 recommendations remain open. In its response, management described actions it is taking or
intends to take to address the issues that prompted each of our recommendations. We wish to note
that in closing recommendations, we are not certifying that the agency has taken these actions or that
we have reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.

OIG will review and consider closing recommendations 1-11 and 15-25 when the documentation
reflected in the agency’s response to the preliminary report is received. For recommendations 12-14,
additional documentation is required. These recommendations remain open pending confirmation
from the chief compliance officer that the documentation reflected in our analysis below is received.

12: That the chief acquisition officer develop continuous learning requirements for overseas
contracting officers.

       Concur: The continuous learning requirements for overseas contracting officers are being
       reviewed by OACM and a determination is expected by the end of the calendar year.

       Ongoing training is made available to overseas contracting officers during annual Director of
       Management & Operations (DMO) Conferences. Training certificates issued as a result of
       training at DMO conferences will identify the number of hours of training received and the
       corresponding number of Continuous Learning Points (CLPs). OACM will maintain a record
       of the DMO training provided as well as any other contract related training taken by the
       overseas contracting officers.

       OIG Analysis: In addition to providing ongoing contracting training at the annual DMO
       conference, please also prepare and submit a plan to provide ongoing training to the
       contracting officers that do not attend the conference.

13. That the chief acquisition officer require contracting officer representatives to be certified
in accordance with the Federal Acquisition Certification-Contracting Officer Representatives
requirements.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                               62
       Non-concur: There currently is not a need for CORs at post due to the small dollar value and
       non-complex nature of the acquisitions being awarded which are typically fixed price or
       fixed rate product or service orders valued at less than $25k. For these types of requirements
       Contracting Officers are to utilize points of contact to support the administration of contract
       actions awarded. Should very large or complex projects be initiated at post which would
       require complex contract administration, the requirements of FAC-COR would be
       implemented.

       OIG Analysis: There is a discrepancy between information provided to OIG during
       fieldwork and the response provided above. During the evaluation fieldwork, OIG
       specifically asked OACM’s points of contact whether or not there were CORs working
       overseas. The points-of-contact informed OIG that there were overseas CORs, although they
       admitted that no one maintained a record of the CORs. They also stated that the CORs were
       trained by the contracting officer. Please provide documentation that explains the
       discrepancies between the information obtained during fieldwork and the agency’s current
       position.
14. That the chief acquisition officer maintain a record of overseas contracting officer
representatives, provide oversight to ensure Federal Acquisition Certification-Contracting
Officer Representatives program compliance, and manage and track training participation.

       Non-Concur: Should the need for full delegation of contract administration to CORs at post
       become necessary, the existing OACM FAC-COR program oversight and tracking would be
       applicable.

       OIG Analysis: See OIG response to recommendation 13.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                              63
    APPENDIX H: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

P ROGRAM                     This program evaluation was conducted under the
EVALUATION                   direction of Assistant Inspector General for Evaluations
                             Jim O’Keefe, by Lead Evaluator Heather Robinson,
COMPLETION
                             Program Analyst Kaitlyn Large, and Evaluation
                             Apprentice Ben Simasek. Additional contributions were
                             made by Senior Evaluator Jerry Black, Lead Auditor
                             Rebecca Underhill, Attorney Advisor Jose Vega,
                             Administrative Specialist Sydni Porter, and Writer/Editor
                             Lisa Chesnel.




                             Jim O’Keefe
                             Assistant Inspector General for Evaluations

OIG CONTACT                  Following issuance of the final report, a stakeholder
                             satisfaction survey will be distributed to agency
                             stakeholders. If you wish to comment on the quality or
                             usefulness of this report to help us improve our products,
                             please contact Assistant Inspector General for Evaluations
                             Jim O’Keefe and at jokeefe@peacecorps.gov or
                             202.692.2904.




Final Program Evaluation Report: Training Peace Corps’ Overseas Staff                     64
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: PeaceCorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
